<html>
<title> - COMMUNITY PERSPECTIVES ON CORONA- VIRUS PREPAREDNESS AND RESPONSE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    COMMUNITY PERSPECTIVES ON CORONAVIRUS PREPAREDNESS AND RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY
                         
                                OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2020

                               __________

                           Serial No. 116-66

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                              

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-343 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric L. Richmond, Louisiana        Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Ronald A. Klain, Former White House Ebola Response 
  Coordinator (2014-2015):
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Christopher Neuwirth, MA, MEP, CBCP, CEM, Assistant 
  Commissioner, Division of Public Health Infrastructure, 
  Laboratories, and Emergency Preparedness, New Jersey Department 
  of Health:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Dr. J. Nadine Gracia, MD, MSCE, Executive Vice President and 
  Chief Operating Officer, Trust for America's Health:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Dr. Thomas Dobbs, MD, MPH, State Health Officer, Mississippi 
  State Department of Health:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                             For the Record

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana:
  Article by Ronald A. Klain.....................................    46
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Coronavirus Plan of Action.....................................    43
  Article From National Geographic...............................    48
  ...............................................................

 
   COMMUNITY PERSPECTIVES ON CORONA- VIRUS PREPAREDNESS AND RESPONSE

                              ----------                              


                        Tuesday, March 10, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 310 Cannon House Office Building, Hon. Donald M. Payne, 
Jr. (Chairman of the subcommittee) presiding.
    Present: Representatives Payne, Richmond, Underwood, Green, 
Clarke; King, Crenshaw, Guest, and Bishop.
    Also present: Representative Jackson Lee.
    Mr. Payne. The Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order. The subcommittee is 
meeting today to receive testimony on community perspectives on 
coronavirus preparedness and response.
    Without objection, the Chair may declare the subcommittee 
in recess at any point.
    Without objection, Members not sitting on the subcommittee 
will be permitted to participate in today's hearing.
    I now recognize myself for an opening statement.
    Good afternoon. We are here today to discuss the 
coronavirus, also known as COVID-19. We are at a critical point 
in responding to the coronavirus crisis that is facing our 
Nation. Americans are concerned. Hundreds of Americans are 
sick. Sadly, their families mourning the loss of loved ones 
from the coronavirus, and our hearts are with them. The Nation 
is seeing cases on the rise, and experts say the outbreak is 
getting worse.
    In New Jersey we were just informed that we had our first 
death from coronavirus, and at least 2 dozen schools are 
closing for coronavirus preparation, and we have seen an 
increase in presumed cases. State and local governments are 
working tirelessly to limit the spread of the coronavirus in 
our communities. At the Federal level we have seen our experts 
at the CDC and others, other agencies, working to address this 
issue.
    Unfortunately, we have also seen Federal officials offer 
mixed messages on the seriousness of the coronavirus. We are 
not here today to point any fingers, but we must tell the 
truth.
    The American public needs to be able to trust the 
information coming from all levels of Government. It is now 
more important than ever for our leaders to trust science and 
speak with clarity and precision so that Americans can trust 
what they are hearing. It is unhelpful to the outbreak response 
for administration staff to state as recently as last week that 
the virus is contained, when we know that is not true, because 
cases are on the rise.
    Another point of confusion with the administration lies in 
the test kits. While the experts at the CDC and even Vice 
President Pence have expressed concern about potential testing 
shortages, the President, on the other hand, has dismissed 
these worries. There have been reports of the White House 
rejecting the advice of the CDC, and even going as far as 
muzzling experts. These reports are troubling.
    Let's be clear. I want the Federal response to the 
coronavirus to be robust. No one is rooting for failure. But 
what I have seen is leading me to become very concerned.
    With that said, the goal of today's hearing is to 
understand what, as Members of Congress, we can do to minimize 
the coronavirus outbreak for the American public. We need to 
hear today how Congress can support State and locals in 
preventing the spread of this virus.
    I would like to thank the panel of witnesses today, and 
look forward to hearing their remarks.
    [The statement of Chairman Payne follows:]
                Statement of Chairman Donald Payne, Jr.
                             March 10, 2020
    We are at a critical point in responding to the coronavirus crisis 
that is facing our Nation. Americans are concerned. Hundreds of 
Americans are sick. Sadly, there are families mourning the loss of 
loved ones from the coronavirus and our hearts are with them.
    The Nation is seeing cases on the rise and experts say the outbreak 
is getting worse. In New Jersey, at least 2 dozen schools are closing 
for coronavirus preparations and we have seen an increase of presumed 
cases. State and local governments are working tirelessly to limit the 
spread of the coronavirus in our communities.
    At the Federal level, we have seen our experts at the CDC and other 
agencies working to address this issue. Unfortunately, we have also 
seen Federal officials offer mixed messages on the seriousness of the 
coronavirus.
    We are not here today to point fingers, but we must tell the truth. 
The American public needs to be able to trust the information coming 
from all levels of government. It is now more important than ever for 
our leaders to trust science and speak with clarity and precision so 
that Americans can trust what they are hearing.
    It is unhelpful to the outbreak response for administration staff 
to state, as recently as last week, that the virus is contained when we 
know that is not true because cases are on the rise.
    Another point of confusion with the administration lies in the test 
kits. While the experts at CDC and even Vice President Pence have 
expressed concern about potential testing shortages, the President, on 
the hand has dismissed these worries.
    There have been reports of the White House rejecting the advice of 
the CDC and even going so far as ``muzzling'' experts. These reports 
are troubling. Let's be clear. I want the Federal response to the 
coronavirus to be robust.
    No one is rooting for failure, but what I have seen is leading me 
to be very concerned.
    With that said, the goal of today's hearing is to understand what 
we as Members of Congress can do to minimize the coronavirus outbreak 
for the American public. We need to hear today how Congress can support 
State and locals in preventing the spread of this virus.

    Mr. Payne. Without objection, I now recognize the Ranking 
Member of the subcommittee, the gentleman from New York, Mr. 
King, for an opening statement.
    Mr. King. Thank you, Mr. Chairman. I also want to welcome 
and thank all of our witnesses today for taking the time to be 
here. All of us have a lot to learn on this, and I look forward 
to your testimony.
    The novel coronavirus, or COVID-19, has already claimed 
thousands of lives across the globe, including over 20 here in 
the United States. I think, as we realize those numbers will be 
changing by the hour, it can be different by the end of this 
hearing, for all we know.
    This is not the first time, though, our country has had to 
deal with an outbreak, and it likely won't be the last. We have 
been preparing for a situation such as this.
    Last year the Department of Health and Human Services 
conducted the Crimson Contagion 2019 functional exercise, a 
multi-State, whole-of-government exercise to assess the 
Nation's ability to respond to a large-scale outbreak.
    Last summer the President signed into law the Pandemic and 
All Hazards Preparedness Act. Since 2015, under Republican and 
Democratic leadership, funding for infectious disease response 
has increased by 70 percent--that is 70 percent in 5 years.
    While the virus is here now in the United States, we didn't 
see the first case until mid-January. Implementing travel 
restrictions bought us time, and mandatory quarantine helped to 
initially contain the spread of the virus.
    Unfortunately, through community spread, positive cases for 
COVID-19 have now been reported in over 30 States. The New York 
State Department of Health is reporting over 140 positive 
cases. Again, that is as of this morning. At the rate they are 
going, I think there is already several more, just in my county 
today, and a state of emergency was declared just this past 
weekend.
    Blind panic won't help us stop the virus from spreading. 
Cooperation, information sharing, and strong leadership are 
what is critical to successfully deal with a situation of this 
magnitude. We must ensure that proper protocols are put in 
place, and the Federal Government works hand-in-hand with our 
State and local partners.
    As recommended, the National Blueprint for Biodefense by 
the Bipartisan Commission on Biodefense--I was pleased to hear 
last week's panel of witnesses agree with the President's 
selection of the Vice President to lead the coronavirus task 
force. To achieve a whole-of-government, coordinated response 
to this outbreak, it is important that the person in charge has 
visibility of the entire Government and a direct line to the 
President. The Vice President is the right choice.
    Now, while this has been a vigorous, international--already 
been a vigorous, international Federal, State, and local 
response, as the situation continues to unfold I encourage 
everyone to heed the advice of our medical professionals: Wash 
your hands, stay home when sick, and visit the Centers for 
Disease Control and Prevention's website for up-to-date 
information. I certainly commend the first responders, medical 
personnel, and public health officials who responded 
courageously for those who were sick.
    Also, if I could just add, you know, there are things we 
can criticize. I am sure things could have been done earlier at 
the start. There is no problem with constructive criticism. But 
I think, if we just criticize for the sake of criticizing, to 
me that really adds nothing to it. If we can do it in a 
constructive way, that is fine.
    I will say, in a bipartisan way, in my State of New York, 
under--Governor Cuomo struck the proper balance. Also the 
county executives in the county I represent have done that 
also, saying that this is real, but we shouldn't panic, and 
trying to provide the best health facilities possible. I know 
that when this does hit a certain stage, they may be overrun. 
But I think that is what we should be striving for.
    At the Federal level--and I would disagree with the Ranking 
Member on this, as far as muzzling--I think it is important to 
get a coordinated response out.
    Again, there is valid criticism that can be made, but I 
think we should try to keep it in focus, and try to find ways 
to go forward. Otherwise, you have one side attacking the 
other, and then it goes back, and the American people get more 
confused than ever.
    So, I am not here to make excuses, I am not here to explain 
away things. But I think it is important that we try to treat 
this as the serious issue that it is. Again, the more briefings 
we get, the more serious we realize it is, and we should try to 
keep that focus in that way.
    [The statement of Ranking Member King follows:]
               Statement of Ranking Member Peter T. King
                             March 10, 2020
    The novel coronavirus or COVID-19 has already claimed thousands of 
lives across the globe, including over 20 here in the United States.
    This is not the first time our country has had to deal with an 
outbreak and it likely won't be the last. Luckily, our country has been 
preparing for exactly this type of situation. Just last year, the 
Department of Health and Human Services conducted the Crimson Contagion 
2019 Functional Exercise--a multi-State, whole-of-government exercise 
to assess the Nation's ability to respond to a large-scale outbreak. 
Last summer, the President signed into law the Pandemic and All-Hazards 
Preparedness Act. And since 2015, under Republican leadership, funding 
for infectious disease response increased by 70 percent.
    While the virus is here now in the United States, we didn't see the 
first case until mid-January. Implementing travel restrictions bought 
us time, and mandatory quarantine helped to initially contain the 
spread of the virus. Unfortunately, through community spread, positive 
cases for COVID-19 have now been reported in over 30 States. The New 
York State Department of Health is reporting over 140 positive cases 
and a state of emergency was declared just this past weekend.
    Blind panic won't help us stop this virus from spreading. 
Cooperation, information sharing, and strong leadership are critical to 
successfully dealing with a situation of this magnitude. We must ensure 
that proper protocols are put in place and that the Federal Government 
works hand-in-hand with our State and local partners.
    As recommended in A National Blueprint for Biodefense by the 
Bipartisan Commission on Biodefense, I was pleased to hear last week's 
panel of witnesses agree with the President's selection of the Vice 
President to lead the coronavirus task force. To achieve a whole-of-
government, coordinated response to this outbreak, it is important that 
the person in charge has visibility of the entire Government, and a 
direct line to the President. The Vice President is the right choice.
    While there has already been a vigorous international, Federal, 
State, and local response, as this situation continues to unfold, I 
encourage everyone to heed the advice of our medical professionals--
wash your hands, stay home when sick, and visit the Centers for Disease 
Control and Prevention's (CDC) website for up-to-date information.
    I commend the first responders, medical personnel, and public 
health officials who have responded courageously to care for those who 
are sick. I look forward to hearing from our panel today to understand 
more about the COVID-19 virus and possible response and mitigation 
measures moving forward.

    Mr. King. So with that, Mr. Chairman, I yield back the 
balance of my time.
    Mr. Payne. Thank you. Did you mean----
    Mr. King. Chairman, I was lost in the past----
    Mr. Payne. With muzzling, did you mean the Ranking Member, 
or the Chair?
    Mr. King. I was lost in the past, in the glorious past, 
when I was Chairman and you were Ranking Member.
    Mr. Payne. Glory days, glory days. Yes, OK.
    [Laughter.]
    Mr. King. I certainly commend you, as our Chairman.
    Mr. Payne. Thank you, sir.
    Mr. King. I see Yvette laughing over there.
    Mr. Payne. Other Members of the subcommittee are reminded 
that, under the committee rules, opening statements may be 
submitted for the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 10, 2020
    As a Nation, we have faced homeland security crises from acts of 
terror like the September 11 terrorist attacks and catastrophic natural 
disasters like Hurricanes Andrew, Katrina, and Maria. Now, the outbreak 
of the coronavirus reminds how important emergency preparedness and 
response is for threats of all types.
    To date, there have been hundreds of confirmed cases of COVID-19 in 
the United States, and unfortunately Americans have lost their lives to 
this virus.
    Now, more than ever, we need to let sound science guide our 
policies. It is clear that the coronavirus is a serious public health 
threat to this country and it must be treated as such.
    Unfortunately, President Trump has downplayed the seriousness of 
the virus and contradicted CDC officials' warnings about the magnitude 
of the threat. During President Trump's recent trip to the CDC, which 
was abruptly canceled and then just as abruptly rescheduled, he wore a 
campaign hat, compared the delay in test kits to his Ukraine scandal, 
and spoke against his own officials about the availability of test 
kits.
    Americans need real leadership from all public officials at all 
levels. Moreover, State and local governments need assistance from the 
Federal Government. Test kits need to be pushed out for use in 
communities. Federal funding needs to be available to assist State and 
local agencies, as none of them are budgeted for responding to a global 
outbreak.
    To that end, I am pleased that Congress moved quickly to get a 
supplemental funding package to the President's desk. I am hopeful that 
those resources will support coronavirus response efforts and allow us 
to make real headway against this threat.
    I look forward to hearing from the witnesses today about how the 
Federal Government can improve its response and provide more support to 
the State and local governments and agencies on the front lines of this 
crucial effort. Their success will be our success over the coronavirus, 
so Congress and the administration must be with them every step of the 
way.

    Mr. Payne. I want to welcome our panel of witnesses today.
    Our first witness is Mr. Ron Klain, who is--among many 
other positions in public service, was the White House Ebola 
response coordinator during the Obama administration, and can 
provide lessons learned from his time battling a previous 
public health emergency.
    We also welcome today Mr. Christopher Neuwirth, the 
assistant commissioner of the division of public health 
infrastructure, laboratories, and emergency preparedness for 
the New Jersey's department of health. In his role, Mr. 
Neuwirth provides strategic and operational leadership to 
coordinate New Jersey's hospital and public health disaster 
resilience, laboratory services, and emergency preparedness and 
response.
    Welcome.
    Next we have Dr. Nadine Gracia, the executive vice 
president and chief operating officer for Trust for America's 
Health, a nonprofit, nonpartisan organization that promotes 
optimal health for every person and community that--and 
advocates for an evidence-based public health system that is 
ready to meet the challenges of the 21st Century.
    Welcome, ma'am.
    At this time I would recognize the gentleman from 
Mississippi, Mr. Guest, to introduce our fourth witness.
    Mr. Guest. Thank you, Mr. Chairman. It is an honor for me 
today to introduce fellow Mississippian, Dr. Thomas C. Dobbs, 
III. Dr. Dobbs is the State health officer at the Mississippi 
State department of health. Dr. Dobbs has served in this role 
since 2018. Dr. Dobbs has also held previous positions as the 
health State officer and the State epidemiologist.
    He is board certified in internal medicine and infectious 
disease, and practiced in Mississippi before joining the 
department of health. Dr. Dobbs holds a doctorate of medicine 
and a master's in public health from the University of Alabama 
at Birmingham.
    Dr. Dobbs, I personally want to thank you for providing 
your expertise on this panel today as an infectious disease 
physician, and for sharing about the coronavirus preparation 
you are leading in Mississippi. I am proud you have joined us 
today for this hearing, and look forward to hearing your 
remarks.
    Thank you, Mr. Chairman. I yield back.
    Mr. Payne. I thank the gentleman.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes. We are going to keep strict time today, 
beginning with Mr. Klain.

   STATEMENT OF RON KLAIN, FORMER WHITE HOUSE EBOLA RESPONSE 
                    COORDINATOR (2014-2015)

    Mr. Klain. Thank you, Mr. Chairman, Ranking Member King, I 
thank you for having me here today.
    Before I begin I would like to make two preliminary points.
    First, as frustrating as it may be, there is still a great 
deal we do not know about the coronavirus and the disease it 
causes. In fact, we know less about the coronavirus today than 
we did about Ebola in 2014. Scientists are working at breakneck 
speed to improve our understanding, but, as we learn more, our 
response to the virus will have to change.
    Second, while I am a political partisan, I come here today 
in the same way that I approached my tenure as White House 
Ebola response coordinator, putting politics aside. There is no 
Democratic or Republican approach to fighting infectious 
disease, only sound and unsound measures. It doesn't mean 
demurring, calling out failures where they appear. I have been 
critical of many aspects of the administration's response to 
the coronavirus. Likewise, I have praised other steps that the 
administration has taken. Putting politics aside is not 
putting--does not mean putting judgment aside.
    With those 2 preliminary points made, I want to move on to 
how we can use the lessons we learned in the Ebola response to 
approach the current threat.
    To be clear, the Ebola response itself was not without 
problems and mistakes. But ultimately, President Obama mustered 
an all-of-government response to the challenge, authorized the 
first-ever deployment of U.S. troops to combat an epidemic, and 
appointed me to lead a team of talented and dedicated 
professionals at the White House to coordinate the effort.
    In the end, that epidemic was tragic: 11,000 people or more 
died in West Africa. But in September 2014 there was a forecast 
that a million lives would be lost. America's actions, as part 
of a global response, saved hundreds of thousands of lives.
    The on-going legacy of this work is enormous. With 
Congress's support we implemented a National four-tier network 
of hospitals and medical facilities that remain prepared to 
this day to identify, isolate, and treat cases of dangerous 
infectious diseases. Nothing like that existed in 2014 before 
we started. And work on vaccines and therapeutics, as well.
    Now the challenge we face from the coronavirus epidemic is 
different in many ways, but it contains some similarities. So I 
think it is worth thinking about the lessons that can be 
applied in this case.
    First, in a complex, rapidly-evolving scenario like we are 
seeing, there is no substitute for White House coordination and 
leadership. At the end of my tenure as Ebola response 
coordinator, President Obama accepted my recommendation to 
create a permanent pandemic preparedness and response operation 
inside the National Security Council that continued through the 
first year of the Trump administration. But in July 2018 that 
unit was disbanded.
    The administration's decision now to go through a series of 
different structures, first no task force, and then a task 
force led by Secretary Azar, then a task force led by Vice 
President Pence, then Ambassador Birx coordinating the response 
has produced uneven results, and certainly has contributed to 
the largest fiasco in the U.S. response, the failure to 
promptly enable wide-spread testing for the virus, which 
definitely is a result of some lack of coordination between CDC 
and FDA.
    There is simply no reason, none, why the United States lags 
behind nations like South Korea and Singapore in protecting its 
people.
    Second, we must ensure that science and expertise guide our 
actions, not fear, wishful thinking, or politics. There are 
reports, as Chairman Payne indicated, of senior officials in 
the Government rejecting the advice of professionals of the 
Centers for Disease Control and other aspects of sidelining or 
ignoring medical advice. There are many policy decisions to be 
made in the days and weeks ahead. Science and medical expertise 
must guide them, not politics.
    Third, the United States has to lean forward in fighting 
this epidemic overseas, as that, I think, will become an 
increasing priority. Unlike what happened in West Africa in 
2014, the nations of China or Italy, or South Korea--do not 
need our help in responding. But this disease could easily 
spread to Africa and other countries, where we might have to 
step up and do the same kind of things we did in 2014.
    Fourth, the administration must move quickly to implement 
the emergency funding bill passed by Congress last week. 
Congress deserves great credit for acting with unprecedented 
speed in funding this response. But passing a funding bill is 
only the first step, not the last step. Congress needs to make 
sure that the administration is getting that money out, and 
getting it out quickly and effectively. Too often bills get 
passed and they don't get implemented. That has to be a 
priority.
    The White House task force should report regularly to the 
American people on the pace and deployment of the funding 
Congress provided. Where is the money? When is it getting out? 
What is going to be done?
    Fifth, Congress has to continue to do its own work on the 
coronavirus. That includes hearings like this, and ultimately, 
work on things like the economic consequences of the virus.
    Sixth, both the Executive and the Congressional branch need 
to work on the long-standing issues of pandemic preparedness 
that remain. It is not clear if this will be the big epidemic 
that we have seen coming, like the Spanish flu was 100 years 
ago. But, sooner or later, it will come. There is a raft of 
bipartisan proposals sitting on shelves that Congress has never 
acted on. Let this be a reminder of the need to act on that.
    Then finally, I just want to close by saying public 
officials at all levels of government need to take steps 
against discrimination. We are already seeing discrimination 
against Chinese-Americans, Chinese-American-owned businesses 
that will spread as this virus spreads. There is--this virus 
affects humans, not members of any race or ethnicity. We need 
to step up and make sure there are no victims of that 
discrimination.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Klain follows:]
                      Statement of Ronald A. Klain
                             March 10, 2020
    Chairman Payne, Ranking Member King, other Members of the 
subcommittee: Thank you for inviting me to participate in this hearing 
today. I want to commend the subcommittee for moving quickly to gather 
information and educate the public about the coronavirus epidemic that 
originated in China and has now spread to countries around the world, 
including our own. It is a privilege to be able to present my 
perspective on this, and to answer your questions about the emerging 
U.S. response.
    Before I begin my substantive presentation, I want to make two 
preliminary points.
    First, as frustrating as it may be, it is important to understand 
that what we know about this epidemic and the virus that causes it 
remains uncertain. We know much less about coronavirus today than we 
did about Ebola in 2014. Scientists in the United States and around the 
world are working at unprecedented speed to improve our understanding 
about the virus and its spread; new papers are being published every 
day, literally. Nonetheless, there are critical questions about the 
virus, how quickly it spreads, how infectious it might be, how lethal 
it will be--and others--for which we still do not know the answers, and 
that--once learned--will have huge impacts on our response. Part of 
this is due to a lack of full transparency and cooperation by the 
Chinese government. But part of this is due to the fact that it takes 
time for science to learn key facts about a new virus. As someone who 
was once coordinated the policy making and implementation of a response 
to an epidemic, I know that these information gaps are vexing: Many 
decisions cannot wait, and have to be made on the best information 
available. But it is important that we understand this limitation, 
understand that policy choices will have to change as our fact base 
changes, and that we be careful not to make definitive or declarative 
pronouncements when the science does not justify such statements.
    Simply put, at present, we do not know how serious this epidemic 
will become, how many people will contract the virus, how many will 
die, and how grave the threat is to our country. Such a lack of 
knowledge does not counsel a lack of action, indeed, perhaps it 
counsels just the opposite. But it does advise modesty in the 
forcefulness of our conclusions, and awareness of the need to make 
changes in policy choices as we gain more information.
    Second, a point about partisanship and the response. I am an 
outspoken political partisan--that is well-known. But I come here today 
in the same way that I approached my tenure as White House Ebola 
response coordinator: Putting partisanship and politics aside. The 
coronavirus will not ask any person's partisan affiliation before 
infecting them. There is no Democratic or Republican approach to 
fighting infectious disease; only sound and unsound measures.
    That does not mean demurring about calling out failures when they 
appear: I have been critical of many aspects of the Trump's 
administration response to the coronavirus epidemic because they 
reflect failures in execution and communication. Likewise, I have 
praised positive steps taken by the administration, such as bringing in 
Ambassador Birx for a leadership role, or getting strong bipartisan 
support for the Emergency Supplemental that recently passed Congress. 
Putting politics aside does not mean putting judgment aside, both good 
and bad.
    My point about non-partisan approaches here is illustrated by what 
we did during the Obama administration's Ebola response. There, we 
relied heavily on lessons learned and expertise acquired during the 
Bush administration's efforts to fight AIDS and malaria in Africa. Key 
players in the Ebola response were veterans of both Democratic and 
Republican administrations. President Obama's emergency funding package 
passed this House with strong, bipartisan support; our implementation 
of it domestically involved close work with State and local officials 
from both parties; and the input of Members of Congress of all 
political and ideological camps. Saving lives, abroad and at home, 
turns on putting politics aside and allowing science, expertise, and 
sound decision making to govern our actions.
    With these two preliminary points made, I want to move on to the 
subject of my testimony today: How the lessons we learned during the 
Ebola response in 2014-15 should shape how our Government--in the 
Executive and Legislative branches--approaches the threat now posed by 
the novel coronavirus.
    To be clear, the Ebola response was not without its own problems 
and mistakes. Particularly early on, the danger to Africa and the world 
was underestimated; early signs of progress in containing the disease 
in the spring of 2014 led to a false sense of security. The fact that 
no Ebola outbreak prior to 2014 had ever involved more than 500 cases 
of the disease also led to a false confidence that a large-scale 
epidemic was unlikely. Early initiatives in West Africa lacked a full 
understanding of the complexities of implementation there and cultural 
and religious barriers to some aspects of the response. Confusion and a 
lack of preparation led to missteps when the first case of Ebola 
arrived in Dallas, Texas, in late September, 2014.
    But ultimately, the United States got the response organized; 
quickly adapted and improved its approach; and made adjustments to what 
responders were doing in Africa and here at home. President Obama 
mustered an all-of-government response to the challenge, authorized the 
first-ever deployment of U.S. troops to combat an epidemic (``Operation 
United Assistance''), appointed me to lead a team of dedicated and 
talented professionals at the White House to coordinate this effort, 
implemented novel and innovative policies on travel screening and 
monitoring, and won Congressional approval of a $5.4 billion emergency 
package to fight the disease abroad and improve our preparedness at 
home and around the world for future such epidemic threats.
    In the end, the epidemic in West Africa was tragic: An official 
death toll of over 11,000, with the real count likely higher. But the 
backdrop for this loss of life must be considered. In September 2014, 
experts forecast that the death toll could be over 1 million people; 
thus, the response succeeded in helping to reduce the projected loss of 
life dramatically. America's actions--as part of a global response, 
with Africans playing the largest part, deserving the greatest credit, 
and suffering the harshest losses to its health care workers--saved 
hundreds of thousands of lives. It was a great humanitarian 
achievement.
    Here at home, after the initial missteps in Dallas, no one 
contracted Ebola on U.S. soil, and Americans evacuated for medical care 
in the United States were successfully treated and released, with only 
a lone fatality. Once implemented, our monitoring system successfully 
insured no domestic transmission of the disease, routed suspected cases 
to prepared medical facilities before those patients could be 
infectious, and enabled ample time for successful testing and response.
    The on-going legacy of this response is likewise enormous. With 
Congress' support, we implemented a National four-tiered network of 
hospitals and medical facilities that remain prepared to this day to 
identify and isolate cases of dangerous infectious disease, and to 
provide treatment to those who are infected--nothing like this existed 
in 2014 when the Ebola epidemic began, as many earlier investments made 
after the anthrax attacks in 2001 had been allowed to dissipate. The 
capacity to test for and promptly identify diseases like Ebola grew 
from 3 laboratories in the United States in September 2014 to almost 
100 by the end of that year. We developed rapid diagnostics that ended 
the risky practice of having patients wait days to learn if they were 
sick and/or infectious. Vaccines against Ebola were tested and 
developed, and as a result of that work, an effective vaccine now 
exists and is being used in the field. New therapeutics were developed 
that helped reduce the mortality rate of Ebola dramatically.
    It is no wonder that this effort--without in any way minimizing the 
devastation in West Africa--is seen today as a huge success. Tom 
Friedman wrote last year that that West African Ebola response was:

``[President Obama's] most significant foreign policy achievement, for 
which he got little credit precisely because it worked--demonstrat[ing] 
that without America as quarterback, important things that save lives 
and advance freedom at reasonable costs often don't happen.''

    From mid-October 2014 to mid-February 2015, I was proud to lead the 
team at the White House that coordinated this response. We saw the 
weekly new case count in West Africa drop from about 1,000 a week to 
fewer than 5 a week, at which point the President announced the end of 
Operation United Assistance and began the withdrawal of U.S. troops 
serving in that mission.
    This was a truly global response, with tremendous contributions by 
Government officials, NGO's, and volunteers from around the world, and 
particularly close partnership with our allies in the United Kingdom 
and France. With regard to the U.S. part of this global effort, special 
thanks should go to the men and women on the front lines. This includes 
our members of the 101st Airborne (who constituted the bulk of 
Operation United Assistance), and also, civilian responders--via USAID 
DART teams and CDC employees deployed to the region, and contractors 
who supported them. It includes the men and women of the U.S. Public 
Health Service who staffed the Monrovia Medical Unit in Liberia. It 
includes our career Ambassadors and other diplomats who served in all 3 
affected countries with skill and played such a large role in the 
response. It includes the doctors, nurses, and other health care 
workers--many volunteers--who served in Ebola treatment units, 
hospitals, and other facilities--treating the sick under extreme 
conditions. It includes the scientists of the NIH and the CDC who 
pioneered new diagnostics, therapeutics, and vaccines. The U.S. 
response put over 10,000 people--soldiers and civilians, Government 
workers and NGO teams, contractors and volunteers--on the ground in 
West Africa in 2014-2015. It was a gargantuan undertaking, and a story 
in which all Americans should take pride.
    To make that effort effective, and to match it with preparation and 
protection here at home, it took talented teams in Washington, in 
Atlanta at the CDC, and in Government agencies and private health care 
facilities around the country. Public servants of all ranks and all 
levels worked around the clock. As I mentioned before, Congress acted 
swiftly and on a bipartisan basis to approve most of the Obama 
administration's request for $6 billion in aid, less than 5 weeks after 
it was sent to Capitol Hill.
    I would be remiss if I did not say that, of course, President 
Obama, too, deserves credit for this success. He weathered sharp 
criticism for his actions during the Ebola response, and had to ignore 
pressures to put aside the advice he was getting from top scientists 
and medical experts. He made difficult decisions about the actions we 
took abroad and at home. He communicated openly and directly with the 
American people, and chaired repeated meetings of the National Security 
Council as the response took shape. He used every tool at his 
disposal--from his bully pulpit (to destigmatize survivors by publicly 
hugging Ebola patient Nina Pham in the Oval Office after her discharge 
from the hospital), to authorizing the massive deployment to West 
Africa, to personally engaging numerous world leaders to activate their 
resources and support for the response, to pressing Congressional 
leaders to approve his emergency spending package, and much more: He 
did so much to achieve these results.
    The challenge we face from the coronavirus epidemic now rapidly 
accelerating contains many similarities, but also, many differences 
from the challenge posed by the Ebola epidemic in West Africa in 2014-
15. It would be a mistake to simply repeat what we did at that time, 
given those many differences. But likewise, it would also be a mistake 
to ignore the lessons that can be learned from that response, given the 
similarities. Hence, I am grateful for the opportunity to talk about 
the lessons I think are most applicable from this experience, to be 
applied in the current circumstance.
    Among the many possible lessons that should be employed now, there 
are 7 in particular that I would like to call out today. I will do so 
briefly, but I am happy to go into more depth on any of them in 
response to your questions or any subsequent follow-up from the 
subcommittee.
    First, in a complex, rapidly-evolving scenario like the one we are 
seeing, there is no substitute for White House coordination and 
leadership. While the centralization of leadership of the response in 
Vice President Pence and his team is an improvement over where things 
stood days ago, there remains confusion with the structure, and the 
lack of a single, full-time official inside the National Security 
Council at the White House overseeing our response.
    At the end of my tenure as Ebola Response Coordinator, I said that 
there should never be another specific ``Disease Czar'' at the White 
House. Instead, I recommended to President Obama that he create a 
permanent ``Pandemic Preparedness and Response'' directorate inside the 
NSC, led by a Deputy National Security Adviser-level appointee with 
direct access to the President as needed, to oversee on-going work to 
prepare for the inevitable next time, and to coordinate a response to 
an epidemic when it arrived.
    President Obama accepted this recommendation, and set up such a 
unit in 2015. President Trump continued with the structure, and named 
Admiral Tim Ziemer--a respected long-time public servant--to fill this 
post. If Admiral Ziemer were still in place, I believe that America 
would be much better positioned to respond to the coronavirus threat 
today.
    But unfortunately, in July 2018, when John Bolton took over as head 
of the NSC, he disbanded this unit, and Admiral Ziemer was reassigned 
to USAID. As a result, there has been no special unit at the NSC to 
oversee preparedness for epidemics, or the current response. In 
addition, the Trump administration has dismantled the Homeland Security 
Advisor structure that Presidents Bush and Obama used to deal with 
complex transnational threats, further undermining our preparedness for 
events like these.
    The administration's sequential decisions to first say no special 
structure was needed to manage the response; then to create a ``Task 
Force'' to oversee the response, led by Secretary Alex Azar; then to 
replace Secretary Azar with Vice President Pence as the official in 
charge of that Task Force; and then to bring in Ambassador Birx as the 
coordinator of the response, part-time, reporting to VP Pence, has 
produced uneven results. The response is likely to be a massive 
undertaking of multiple agencies, State and local governments, private 
and public sectors, and international partners. We are still in the 
early days, with many tasks left undone.
    But it seems that already the largest fiasco in the U.S. response--
the failure to promptly enable wide-spread testing for the virus--is at 
least in part a product of this coordination problem, with CDC blaming 
FDA, other officials pointing fingers at CDC, and a delayed engagement 
of State and local labs and private alternatives. There is simply no 
reason--none--why testing in the United States should lag nations like 
South Korea or Singapore.
    For these reasons, and many more, an effective response to a 
challenge like coronavirus must be led by a full-time appointee at the 
White House. Ideally that decision would be made by the Executive 
branch, but another avenue to achieve this structure would be for 
Congress to move ahead on the Global Health Security Act (HR 2166), 
introduced by Reps. Connolly and Chabot, as that bill which impose much 
of this apparatus by statute.
    Second, the administration must ensure that science and expertise 
guide our actions, not fear, wishful thinking, or politics. One of the 
first casualties in an epidemic is rational thinking, replaced by fear, 
bias, and poor decision making. We saw this in 2014 with calls for 
needless travel bans and baseless quarantine restrictions; President 
Obama was right to reject these misguided calls, and to implement 
travel and monitoring policies based on the scientific advice he got 
from the Nation's leading experts.
    In this case, there are troubling reports that the advice of senior 
officials of the Centers for Disease Control have been ignored with 
regard to travel advisories and public awareness. The President himself 
has suggested that passengers on a cruise ship with many infected 
persons aboard are being handled in a fashion--not governed by medical 
considerations--but by a desire to keep tallies of U.S. cases low. 
Officials who spoke publicly and truthfully of the ``inevitability'' of 
spread of the disease in the United States have been sidelined. We do 
not yet know whether this mindset--trying to minimize the disease, and 
downplay warnings--is contributing to the sluggish response of our 
Government. But in my experience, the tone set at the top governs how 
key players respond, and it seems unlikely that what we have heard from 
the President has been helpful.
    More generally, there will be many policy decisions to be made in 
the days and weeks ahead. Science, medicine, and expertise should guide 
them. The American people are lucky to have the world's leading experts 
on infectious disease working in their government, led by men and women 
like Tony Fauci at NIH and Anne Schuchat at CDC. They have served 
Democratic and Republican administrations, and helped Presidents with a 
wide variety of political perspectives save lives and protect our 
Nation. This expertise should be paramount in decision making at all 
levels of government.
    Third, the United States must ``lean forward'' to fight this 
epidemic overseas, using all of the tools and leverage that we can 
commit to the effort. Unlike West Africa in 2014, today in 2020, China, 
South Korea, Italy, Iran, and Japan--the hardest-hit countries to 
date--probably do not need, and/or would not accept, thousands of U.S. 
responders on the ground treating patients, testing new approaches, 
conducting research, providing infrastructure, and helping bring the 
disease under control. This is a huge difference.
    But that should not get us off our toes, or have us sitting back 
and believing that our only sphere of action is the homeland. Dr. Tony 
Fauci of NIH has publicly urged the deployment of medical researchers 
and investigators to China, and key administration leaders should apply 
pressure to encourage the most open access possible. Nations less 
advanced or well-resourced than South Korea or Italy may experience 
significant coronavirus outbreaks and require more direct forms of U.S. 
assistance, akin to what we provided during the 2014 Ebola epidemic. We 
should send CDC experts wherever they would be helpful, and task USAID 
to determine where DART teams and other assistance could be usefully 
deployed. Likewise, we should bolster preparedness in low-income 
countries now--before the disease spreads further--to avoid spread in 
places where local containment efforts might fail. The danger of a 
coronavirus epidemic in Africa is enormous, and its potential 
consequences catastrophic. Our diplomats should be empowered and 
engaged around the globe, and our Government must press WHO--which has 
stronger leadership today under Dr. Tedros Adhanom Ghebreyesu than it 
had during the 2014 Ebola epidemic--to do the right thing.
    This is a global challenge, and America must provide global 
leadership. There is no room for isolationism or withdrawal. The best 
way to keep Americans safe is to combat the virus overseas. We should 
do this not only because it is generous or humanitarian--though it 
would be generous and humanitarian, both great American traits--but 
because it will make America safer and reduce the spread of the 
epidemic here.
    Fourth, the administration must move quickly to implement the 
emergency funding package passed by Congress last week, to ensure that 
there are no further delays in responding to the coronavirus challenge. 
As Congress recognized in passing this bill, fighting the coronavirus 
will cost money. Key Federal agencies will have costs. State and local 
governments will feel a pinch from monitoring contacts of those who 
have the virus, and tracking and monitoring individuals who have been 
in affected countries. Hospitals treating patients with the virus will 
need assistance of all sorts. Research and deployment of new 
therapeutics and vaccines needs Government support, and funding for 
private-public partnerships. The list of needs goes on.
    As I will discuss in a minute, Congress acted with unprecedented 
speed in passing an Emergency Supplemental Funding package to help 
address these needs. But passage of that package is only the first 
step. As we learned during the Ebola response, that funding only makes 
a difference if the administration acts with speed in putting the 
funding to work: With focus and pace, and a plan for implementation 
that has clear metrics and accountability. At the top of my list would 
be testing, and preparing the health care system for an influx of 
cases--to increase capacity and to avoid the danger of an overwhelmed 
system suffering failure.
    The White House Task Force led by Vice President Pence should 
report regularly to the American people on the pace of deployment of 
the Emergency Supplemental: What has been put to work and where. Not 
all of the money will be spent immediately, nor should it be: Our needs 
will develop and change in the months ahead. But quick action by 
Congress in passing this package must be matched by quick action in 
putting it to work.
    Fifth, Congress must continue to do its own work in dealing with 
the coronavirus. The burden of action does not rest entirely with the 
Executive branch; Congress too must do its part.
    Congress has already acted admirably in passing with impressive 
speed an Emergency Supplemental funding plan to power the coronavirus 
response. That this happened in a matter of days after the 
administration made such a request, at a level substantially more 
robust and detailed than the administration's request, all are to 
Congress' credit. It was also encouraging to see that action come with 
strong bipartisan support, as it should be.
    But Congress' role does not end with acting on the emergency 
funding question. There are a number of other elements of the response 
that demand Congressional attention. Hearings like today's are 
important, to help ascertain how the response is going and where it 
needs to be improved. Congress wisely funded the Public Health 
Emergency Fund last year--but did so only on a limited basis. Adding to 
that funding, and funding a second emergency fund specific to the 
development of therapeutics and vaccines in public-private 
partnerships, should be considered. In addition, action to address the 
economic consequences of the outbreak will also be needed.
    Moreover, as I wrote in the Post with Dr. Syra Madad in December--
before the coronavirus hit--Congress is overdue to renew the funding 
for the network of ``Ebola and Special Pathogens'' Hospitals. This 
network was created during the Ebola epidemic in 2014, and funding for 
it expires in May 2020. Pending legislation would fund only the 10 most 
advanced such facilities, and would end Federal funding for the 60 
other hospitals that screen, test, and provide initial treatment for 
these cases. Allowing this funding to expire in May would be a huge 
mistake.
    Sixth, both the Executive branch and the Congress should take this 
as a wake-up call to finish the work we need to do on pandemic 
preparedness and readiness. Recently, America marked the 100th 
anniversary of the single largest mortality event in our history: The 
Spanish Flu epidemic of 1918-19. More Americans died from this epidemic 
than from World War I, World War II, the Korean War, and the Vietnam 
War--combined. While, on the one hand, science has made great strides 
since 1918, on the other hand, increased global travel, human incursion 
on animal habitats, and the stresses of climate change have raised the 
risk that we will face such a ``great pandemic'' once again, sooner or 
later.
    At present, it seems very unlikely that the coronavirus poses such 
a threat to the United States--but we cannot know for certain. 
Moreover, even if this current epidemic is not ``the big one'' that is 
coming, it is a reminder that this danger lurks, and our preparedness 
for it is lacking. As Dr. Ashish Jha of the Harvard Global Health 
Institute often says, ``Of all the things that can kill millions of 
Americans quickly and unexpectedly, an epidemic is probably the most 
likely . . . and the one in which we invest the least to prevent.''
    The Global Health Security Agenda, legislation such as H.R. 2166, 
Blue Ribbon Commission reports, table-top exercises, proposals from 
Members of this subcommittee--and my own extensive writing over the 
past 5 years--have set forth detailed agendas of what we need to do to 
prepared for this event. These bipartisan calls for action have been 
largely ignored. The current public focus on infectious disease 
generated by the coronavirus should spur us into action. The time to 
act on this agenda is now. If we wait until the catastrophic pandemic 
arrives, it will be too late.
    Seventh, public officials of all parties and at all levels of 
government need to be on the watch for discrimination against people in 
our country of Chinese descent, and speak out strongly against any such 
fear-driven racism. The coronavirus strikes humans--not people of any 
particular ethnicity or race. Chinese-Americans or Chinese people in 
America are no more likely to get the disease, carry the disease, or 
transmit the disease, than any other group of people.
    Yet we have already seen signs that such people are the targets of 
discriminatory fear--with some already being hassled, threatened with 
expulsion from schools and other mistreatment. As fears of the 
coronavirus accelerate, so too will these incidents. This kind of 
discrimination not only is wrong, but also makes it harder to combat 
the disease. If some members of the Chinese-American community feel 
that they are likely to face hostility, they are less likely to come 
forward when symptoms appear, and less likely to heed advice of public 
health experts.
    It is incumbent on every person in authority in this Nation to 
speak out against such racism, and to ensure that this does not become 
part of our civic life during the coronavirus epidemic. Americans need 
to pull together to fight a disease, not pull apart to fight one 
another.
    In closing, I want to again thank the subcommittee for holding this 
hearing, and for inviting me to participate. I stand ready to answer 
your questions about any of these points, or any other aspects of the 
response.
    America has the tools, the talent, and the expertise to combat the 
coronavirus, both abroad and at home. The question now is whether our 
leaders, in the Executive branch and the Congress, will deploy them 
effectively; act promptly and wisely; rely on expertise--not bias and 
fear; organize and implement our response appropriately; and allow 
science and medicine to be our touchstone. For the sake of people 
around the world, and for the sake of the American people, let us work 
to see that it is so.

    Mr. Payne. Thank you.
    The Chair now recognizes Mr. Neuwirth to summarize his 
statement for 5 minutes.

    STATEMENT OF CHRISTOPHER NEUWIRTH, MA, MEP, CBCP, CEM, 
       ASSISTANT COMMISSIONER, DIVISION OF PUBLIC HEALTH 
 INFRASTRUCTURE, LABORATORIES, AND EMERGENCY PREPAREDNESS, NEW 
                  JERSEY DEPARTMENT OF HEALTH

    Mr. Neuwirth. Good afternoon, Chairman Payne, Ranking 
Member King, and Members of the subcommittee. On behalf of New 
Jersey Governor Phil Murphy and New Jersey Health Commissioner 
Judith Persichilli, thank you for inviting the New Jersey 
Department of Health to participate in today's hearing.
    I am here before you as the assistant commissioner for the 
division of public health infrastructure, laboratories, and 
emergency preparedness. I am responsible for public health, 
emergency management, emergency medical services, and the 
public health and environmental laboratories. My goal today is 
to share with you New Jersey's experience for preparing for and 
responding to the novel coronavirus public health crisis.
    More so, I will share with you experience working with our 
Federal partners at the U.S. Department of Health and Human 
Services and the Centers for Disease Control and Prevention. I 
am hopeful that, by sharing with you how New Jersey has 
responded to the novel coronavirus public health crisis, that 
you will be able to strengthen and enhance the coordination 
between critical Federal agencies and all States, including New 
Jersey.
    Throughout January the department of health actively 
monitored the public health situation arising from Wuhan City, 
China. Our public health experts and epidemiologists readily 
identified a concerning novel pathogen that undoubtedly had the 
potential to escalate into a global pandemic.
    Under the leadership of Commissioner Persichilli, on 
January 27, I established an internal crisis management team 
using National incident management system principles to 
coordinate preparedness and response activities from across the 
department.
    Shortly thereafter, on February 3, Governor Murphy signed 
executive order 102, creating a State-wide coronavirus task 
force led by the commissioner of health. Since their creation, 
the crisis management team and coronavirus task force have 
provided the State of New Jersey with an incident command 
structure that has allowed all departments to effectively 
organize, coordinate, and prioritize their preparedness and 
response activities.
    Simply stated, New Jersey continues to successfully manage 
the public health crisis because of our strategic organization, 
subject-matter expertise, and our collective institutional 
knowledge.
    While I certainly could continue describing all of the 
great work New Jersey is actively doing, I must draw your 
attention to the two most important aspects of any Nation-wide 
public health response: Coordination and communication.
    On Sunday, February 2, during the afternoon of Super Bowl 
Sunday, the New Jersey Department of Health was notified that 
Newark Liberty International Airport would officially be 
designated as the 11th funneling airport in the United States, 
with the first arriving flights arriving within 24 hours with 
more than 350 travelers on board from China.
    Within moments of receiving this news, our crisis 
management team began working feverishly to secure housing, 
transportation, and wraparound services for these individuals 
potentially facing quarantine. Because we had established a 
crisis management team that was well-organized, highly-
disciplined, and remarkably proactive, we were able to 
effectively coordinate a measured response in a moment's 
notice.
    More importantly, as New Jersey begins facing its first 
cases of novel coronavirus just last week, the crisis 
management team and coronavirus task force continue to 
effectively coordinate all aspects of the State's response to 
ensure that communications remain organized, timely, and in the 
public's best interest.
    Throughout the past 8 weeks, my team has been in lockstep 
with our friends and colleagues at the U.S. Department of 
Health and Human Services and at the CDC, both at headquarters 
and within region 2. The daily interactions and near-real time 
communications during fast-moving situations has allowed the 
State of New Jersey to effectively communicate and coordinate 
our activities between all stakeholders.
    As novel coronavirus continues to affect New Jersey, the 
strong relationships we have with our Federal counterparts 
ensures that we can communicate candidly and resolve issues 
immediately as they arise. In a dynamic public health crisis 
such as this, maintaining tight coordination through 
streamlined, clear communications greatly increases the 
effectiveness of our collective response.
    But despite our great partnership with our Federal 
colleagues, the State of New Jersey expends more than $1.8 
million per month responding to novel coronavirus. While our 
CDC award of $1.75 million is greatly appreciated, it certainly 
will not cover the continued expenses incurred by the State or 
the health care and public health infrastructure, including our 
acute care facilities, EMS agencies, and local health 
departments.
    Recognizing that medical supplies are facing a historic 
shortage, and that health care supply chain is nearly frozen 
for respirators, disinfectants, and other personal protective 
equipment, we urge you to consider additional funding to New 
Jersey and the distribution of items from the strategic 
National stockpile.
    New Jersey remains committed to fighting novel coronavirus 
and protecting the public health and safety of all people 
living in and traveling through New Jersey. As the country 
continues to respond to this public health crisis, we ask that 
you remain attentive to the evolving needs of each State, 
specifically New Jersey, and mobilize the information, 
resources, and funding needed to protect the Nation's public 
health and safety.
    Thank you.
    [The prepared statement of Mr. Neuwirth follows:]
               Prepared Statement of Christopher Neuwirth
                             March 10, 2020
    community perspectives on coronavirus preparedness and response
    Good afternoon Chairman Payne, Ranking Member King, and Members of 
the subcommittee. On behalf of New Jersey Governor Phil Murphy and New 
Jersey Health Commissioner Judith Persichilli, thank you for inviting 
the New Jersey Department of Health to participate in today's hearing.
    I am here before you as the assistant commissioner for the Division 
of Public Health Infrastructure, Laboratories, and Emergency 
Preparedness. I am responsible for public health emergency management, 
emergency medical services, and the Public Health and Environmental 
Laboratories. My goal today is to share with you New Jersey's 
experience preparing for and responding to the novel coronavirus public 
health crisis. More so, I will share with you experience working with 
our Federal partners at the U.S. Department of Health and Human 
Services and the Centers for Disease Control and Prevention. I am 
hopeful that by sharing with you how New Jersey has responded to the 
novel coronavirus public health crisis, that you will be able to 
strengthen and enhance the coordination between critical Federal 
agencies and all States, including New Jersey.
    Throughout January, the Department of Health actively monitored the 
public health situation arising from Wuhan City, China. Our public 
health experts and epidemiologists readily identified a concerning 
novel pathogen that undoubtedly had the potential to escalate into a 
global pandemic. Under the leadership of Commissioner Persichilli, on 
January 27, I established an internal Crisis Management Team, using 
National Incident Management System principles, to coordinate 
preparedness and response activities from across the Department. 
Shortly thereafter, on February 3, Governor Murphy signed Executive 
Order 102, creating a State-wide Coronavirus Task Force, led by the 
Commissioner of Health. Since their creation, the Crisis Management 
Team and the Coronavirus Task Force have provided the State of New 
Jersey with an incident command structure that has allowed all 
departments to effectively organize, prioritize, and coordinate their 
preparedness and response activities. Simply stated, New Jersey 
continues to successfully manage this public health crisis because of 
our strategic organizational structure, subject-matter expertise, and 
our collective institutional knowledge.
    While I certainly could continue describing all the great work New 
Jersey is actively doing, I must draw your attention to the most 
important aspects of any Nation-wide public health response--
coordination and communication.
    On a Sunday, February 2, during the afternoon of Super Bowl 
Sunday--the New Jersey Department of Health was notified that Newark 
Liberty International Airport would be officially designated as the 
eleventh funneling airport in the United States, with the first flight 
arriving within 24 hours, with more than 350 travelers on-board from 
China. Within moments of receiving this news, our Crisis Management 
Team began working feverishly to secure housing, transportation, and 
wrap-around services for these individuals potentially facing 
quarantine upon their arrival. Because we had established a Crisis 
Management Team that was well-organized, highly disciplined, and 
remarkably proactive, we were able to effectively coordinate a measured 
response in a moment's notice. More importantly, as New Jersey began 
facing its first cases of novel coronavirus just last week, the Crisis 
Management Team and Coronavirus Task Force continue to effectively 
coordinate all aspects of the State's response and ensure that our 
communications remain organized, timely, and in the public's best 
interest.
    Throughout the past 8 weeks, my team has been in lockstep with our 
friends and colleagues at the U.S. Department of Health and Human 
Services and the CDC--both at headquarters and within Region 2. The 
daily interactions, and near-real time communications during fast-
moving situations, has allowed the State of New Jersey to effectively 
communicate and coordinate our activities between all our stakeholders. 
As novel coronavirus continues to affect New Jersey, the strong 
relationships we have with our Federal counterparts ensures that we can 
communicate candidly and resolve issues immediately as they arise; in a 
dynamic public health crisis such as this, maintaining tight 
coordination through streamlined, clear communications greatly 
increases the effectiveness of our collective response.
    But despite our great partnership with our Federal colleagues, the 
State of New Jersey expends more than $1.8 million dollars per month 
responding to novel coronavirus. While our CDC award of $1.75 million 
dollars is greatly appreciated, it certainly will not cover the 
continued expenses incurred by the State or the health care and public 
health infrastructure serving on the front lines--specifically local 
health departments, acute-care facilities, and EMS agencies. 
Recognizing that medical supplies are facing a historic shortage, and 
the health care supply chain is nearly frozen for respirators, 
disinfectants, and other personal protective equipment--we urge you to 
consider additional Federal funding to New Jersey and the distribution 
of items from the Strategic National Stockpile.
    New Jersey remains committed to fighting novel coronavirus and 
protecting the public health and safety of all people living in, and 
traveling through, New Jersey. As the country continues to respond to 
this public health crisis, we ask that you remain attentive to the 
evolving needs of each State, specifically New Jersey, and mobilize the 
information, resources, and funding needed to protect the Nation's 
public health and safety.
    Again, thank you for this opportunity to testify and I welcome your 
questions.

    Mr. Payne. Thank you, sir. Our next witness, which--I was 
told by my staff that I butchered your name, so I will try to 
do better.
    Ms. Gracia? I am sorry about that. I now recognize you to 
summarize your statement for 5 minutes.

    STATEMENT OF J. NADINE GRACIA, MD, MSCE, EXECUTIVE VICE 
  PRESIDENT AND CHIEF OPERATING OFFICER, TRUST FOR AMERICA'S 
                             HEALTH

    Ms. Gracia. Thank you, Chairman Payne, Ranking Member King, 
and all the Members of the subcommittee. Good afternoon. My 
name is Dr. Nadine Gracia, and I am the executive vice 
president and chief operating officer at Trust for America's 
Health, also known as TFAH.
    TFAH is a nonprofit, nonpartisan public health organization 
which, among our priorities, has focused attention on the 
importance of a strong and effective public health emergency 
preparedness system. Over the past nearly 2 decades, TFAH has 
published an annual report, called ``Ready or Not: Protecting 
the Public's Health from Diseases, Disasters, and 
Bioterrorism.''
    In our most recent report we identified areas of strength 
in our emergency preparedness, as well as areas that need 
attention at the Federal and State levels. Discussion of our 
report findings, including our State assessments, can be found 
in my written testimony or on our website. I would like to 
highlight some of TFAH's policy recommendations to build our 
Nation's preparedness for our public health emergencies, and 
improve the National response to the novel coronavirus disease, 
or COVID-19.
    First, we applaud Congress for rapidly approving a robust 
emergency Federal funding package. Federal agencies should be 
preparing now to quickly distribute funds to States and other 
partners.
    Second, Congress must prioritize on-going investment in 
core public health and annual appropriations. The Nation's 
ability to respond to COVID-19 is rooted in our level of public 
health investment in the last decade. The Nation has been 
caught in a cycle of attention when an outbreak or emergency 
occurs, followed by complacency and disinvestment in public 
health preparedness, infrastructure, and work force. The Public 
Health Emergency Preparedness Line, which supports front-line 
State and local public health preparedness, has been cut by 
over 20 percent since fiscal year 2010, adjusting for 
inflation, and on top of steady cuts since 2004.
    In addition, we have long neglected our public health 
infrastructure. So many health departments are reliant on 20th-
Century methods of tracking diseases such as via paper, fax, 
and telephone. Congress should prioritize funding for data 
modernization to help with emergencies, as well as on-going 
disease tracking.
    Third, we need to ready the health care system for 
outbreaks. Health systems across the Nation are beginning to 
identify, isolate, and care for patients with COVID-19. Health 
care must prioritize the protection of patients and health care 
workers, including appropriate training on infection control 
practices, personal protective equipment, and surge capacity. 
Unfortunately, funding for the hospital preparedness program, 
which helps prepare the health care system to respond to and 
recover from emergencies, has been cut nearly in half since 
2003.
    Fourth, Congress should support the medical countermeasures 
enterprise, including BARDA and the Strategic National 
Stockpile, which build the pipeline of vaccines, treatment, 
medical equipment, and supplies for health security threats.
    Fifth, we must build the pipeline of the public health work 
force. Although supplemental funding may help with short-term 
hiring, this temporary funding does not allow for recruitment 
and retention of workers. Emergency preparedness and response 
are personnel-intensive endeavors that require training, 
exercise, and coordination across sectors. This experience just 
cannot be built overnight.
    Sixth, Congress and employers should consider job-
protected, paid sick leave to protect workers and customers 
from infectious disease outbreaks. One of the recommendations 
we have repeatedly heard is to stay home when sick. For 
millions of Americans, that is not a realistic option. They 
risk losing a paycheck, and possibly their jobs if they stay 
home when sick or to care for a loved one.
    In fact, only 55 percent of the work force has access to 
paid time off. Congress should pass a Federal law to require 
employers to offer paid sick days as soon as possible.
    Finally, science needs to govern the Nation's COVID-19 
response, led by Federal public health experts who have years 
of experience in responding to infectious disease outbreaks. 
Keeping the public and partners informed will be critical. We 
encourage elected officials and community leaders at all levels 
to make policy and communications decisions based on the best 
available science, understanding that the situation is evolving 
rapidly and messages may change.
    Communities that are considering school or business 
closures should follow public health guidance, but also 
consider unintended consequences. For example, nearly 100,000 
schools serve free and reduced meals to 29.7 million students 
each day. The U.S. Department of Agriculture should be 
implementing flexibility for schools to make grab-and-go meals 
and other options available if schools are to close.
    The full extent of this outbreak, in terms of public 
health, health care, and economic and societal costs remains to 
be seen. We do know that taking immediate steps to mitigate the 
effects of this outbreak will save lives and prevent harm.
    Thank you for the invitation to participate today, and I 
look forward to your questions.
    [The prepared statement of Ms. Gracia follows:]
                 Prepared Testimony of J. Nadine Gracia
                             March 10, 2020
    Good afternoon. My name is Dr. Nadine Gracia, and I am executive 
vice president and chief operating officer of trust for America's 
Health, or TFAH. Our organization is a nonprofit, nonpartisan public 
health policy, research, and advocacy organization that promotes 
optimal health for every person and community and makes the prevention 
of illness and injury a national priority. For many years we have 
focused attention on the importance of a strong and effective public 
health emergency preparedness system.
    I previously served as the deputy assistant secretary for minority 
health at the U.S. Department of Health and Human Services (HHS) and 
chief medical officer in the Office of the Assistant Secretary for 
Health. I was involved in the Nation's responses to emergencies such as 
the 2010 earthquake in Haiti, the Flint water crisis, the Deepwater 
Horizon oil spill, and the Ebola and Zika outbreaks.
    I am here today to discuss TFAH's policy recommendations to build 
our Nation's preparedness for public health emergencies and improve the 
National response to the novel coronavirus disease, or COVID-19.
                       tfah's ready or not report
    Over the past nearly 2 decades, TFAH has published an annual report 
called ``Ready or Not: Protecting the Public's Health from Diseases, 
Disasters and Bioterrorism.'' Our most recent report was published in 
February. In it, TFAH provides an assessment of States' level of 
readiness to respond to public health emergencies and recommends policy 
actions to ensure that everyone's health is protected during such 
events. The 2020 edition found unevenness in the Nation's readiness for 
a major emergency. While there were indications of recent improvements 
in some components of preparedness, our report identified areas that 
needed attention.
    Our report is not intended to be an exhaustive review of health 
security data, but instead serves as a checklist of priority issues and 
action items for States to address.
State Assessment
    In our State assessment, some key findings relevant to the response 
to the novel coronavirus:
    We do not have a ready system in place to vaccinate the entire 
population:
  <bullet> Less than half the population, on average, received the 
        seasonal flu vaccine.\1\ That low rate is concerning for a 
        number of reasons--(1) the spread of flu at the same time as 
        COVID-19 makes it harder for clinicians to recognize COVID-19; 
        (2) if people have the seasonal flu, they may be more likely to 
        have severe illness if also infected with COVID-19 and (3) if a 
        mass vaccination campaign is needed in the future, it is vital 
        that we have systems in place that can administer vaccines and 
        a population ready to receive them.
---------------------------------------------------------------------------
    \1\ https://www.cdc.gov/flu/fluvaxview/coverage-1819estimates.htm.
---------------------------------------------------------------------------
  <bullet> There are barriers to the recommendation that workers should 
        stay home when sick. An average of 55 percent of employed 
        workers have access to paid time off.\2\ Paid time off, 
        especially paid sick days, are critical to ensure workers can 
        stay home when sick, caring for a sick loved one, or if 
        measures are taken such as school and workplace closures. 
        Without paid sick time, a worker with flu symptoms might lose 
        income that is essential to cover basic costs like rent or 
        food.
---------------------------------------------------------------------------
    \2\ National Health Security Preparedness Index analysis of Annual 
Social and Economic Supplement of the Current Population Survey. 
www.nhspi.org.
---------------------------------------------------------------------------
    The public health system has been weakened by budget cuts and fewer 
personnel:
  <bullet> More than 50,000 public health jobs have been eliminated in 
        the Nation and public health emergency preparedness funds have 
        been cut by a third. In the last year alone, 11 States cut 
        their public health funding. Investing in the public health 
        infrastructure and workforce before an outbreak or emergency 
        hits is critical to having the systems in place ahead of time. 
        Hiring in the middle of an outbreak is important but is no 
        substitute for the training and experience in place ahead of 
        time.
    There are obstacles to cross-State cooperation during a major 
outbreak:
  <bullet> A third of the States lack a nurse licensure compact, which 
        allows nurses to practice across State lines. This can be 
        relevant when additional clinical staff are needed in an 
        emergency.\3\ This is particularly useful if some States 
        experience a greater impact than others.
---------------------------------------------------------------------------
    \3\ Nurse Licensure Compact in National Council of State Boards of 
Nursing, 2019. https://www.ncsbn.org/nurse-licensure-compact.htm.
---------------------------------------------------------------------------
    More work is needed to ensure hospitals are fully prepared for 
emergencies:
  <bullet> Only 30 percent of hospitals achieved an A grade on patient 
        safety measures, according to The Leapfrog Group.\4\ Hospitals 
        that excel in safety are often better positioned to handle 
        public health emergencies and protect the safety of patients 
        and workers. Hospital preparedness has also been hampered by a 
        50 percent reduction in the Federal Hospital Preparedness 
        Program.
---------------------------------------------------------------------------
    \4\ Hospital Safety Grade State Rankings. Leapfrog Hospital Safety 
Grade. https://www.hospitalsafetygrade.org/your-hospitals-safety-grade/
state-rankings.
---------------------------------------------------------------------------
    There was some good news as well in this year's report. We found 
that:
  <bullet> Most States were accredited in the areas of public 
        health,\5\ emergency management \6\ or both. Such accreditation 
        helps ensure that necessary emergency prevention and response 
        systems are in place and staffed by qualified personnel.
---------------------------------------------------------------------------
    \5\ Public Health Accreditation Board. https://phaboard.org/.
    \6\ EMAP Accredited Programs in EMAP. https://emap.org/index.php/
what-is-emap/who-is-accredited.
---------------------------------------------------------------------------
  <bullet> Public health laboratories have long planned for the kinds 
        of surge of testing capacity we might see during this response. 
        However, their capacity in an outbreak with a novel virus like 
        the novel coronavirus is dependent upon the availability of 
        test kits and additional supplemental funding to handle the 
        increased workload.
    These data points are not intended to grade or shame any State but 
instead point to areas where policy makers, State agencies, the health 
care sector, and even individuals could take steps to improve 
readiness.
All-hazards preparedness and response
    TFAH's report also includes a review of emergencies of the past 
year. We point out how States and localities have responded to many 
incidents in the past year, including lung injuries associated with 
vaping, measles outbreaks, hepatitis A outbreaks, extreme flooding 
throughout the central part of the country, wildfires, and other 
disasters. Even with reduced funding and staffing, public health 
personnel have taken extraordinary steps to protect the public. 
However, what we are seeing with COVID-19 goes beyond what States and 
locals can respond to without additional Federal assistance. Health 
departments have already begun adding staff, updating laboratory 
capacity, implementing isolation and quarantine policies, investigating 
cases, and conducting risk communications to the public and health care 
facilities.\7\ We need to ensure our front-line public health 
departments have the resources they need--as quickly as possible--to 
mount a robust response to the virus. And we must remember that other 
emergencies as well as essential core public health activities are 
occurring at the same time as the novel coronavirus threat. This was 
tragically illustrated recently with the tornado in Tennessee. The same 
public health personnel who respond to COVID-19, were also responding 
to this emergency.
---------------------------------------------------------------------------
    \7\ Governmental Public Health Leaders Request Emergency 
Supplemental Funding for COVID-19 Preparedness and Response Efforts 
(press release). Association of State and Territorial Health Officials, 
National Association of County and City Health Officials, Association 
of Public Health Laboratories and Council of State and territorial 
Epidemiologists. astho.org/Press-Room/Gov-Public-Health-Leaders-
Request-Emergency-Supplemental-Funding-for-COVID-19/02-24-20/.
---------------------------------------------------------------------------
Report's Policy Recommendations
    Finally, TFAH's report includes policy recommendations for 
Congress, Federal agencies, State governments, and other stakeholders. 
Many of our policy recommendations apply to the current outbreak. Today 
I will highlight a few of these and speak to our additional 
recommendations for the COVID-19 outbreak response.
  <bullet> Congress must prioritize on-going investment in core public 
        health as part of the annual appropriations process. The 
        Nation's ability to respond to COVID-19 is rooted in our level 
        of public health investment of the last decade. That is, being 
        prepared starts well before the health emergency is upon us and 
        is grounded in year-in and year-out investment in public 
        health. The Nation has been caught in a cycle of attention when 
        an outbreak or emergency occurs, followed by complacency and 
        disinvestment in public health preparedness, infrastructure and 
        workforce. These are systems that cannot be established 
        overnight, once an outbreak is under way. Programs like the 
        Public Health Emergency Preparedness Cooperative Agreement, 
        which supports front-line State and local public health 
        preparedness, are underfunded compared to a decade ago and in 
        terms of the increasing number of major crises public health is 
        facing. PHEP funding has declined by over 20 percent since 
        fiscal year 2010, adjusting for inflation,\8\ on top of steady 
        cuts since 2004.
---------------------------------------------------------------------------
    \8\ Funding for PHEP was $714.949 million in fiscal year 2010, or 
$851.16 million in 2020 dollars. https://www.cdc.gov/budget/documents/
fy2011/fy-2011-cdc-congressional-justification.pdf.
---------------------------------------------------------------------------
    In addition, we have long neglected our public health 
        infrastructure, so many health departments are reliant on 20th 
        Century methods of tracking diseases, such as paper, fax, and 
        telephone.\9\ Congress should prioritize funding for data 
        modernization to help with emergencies as well as on-going 
        disease tracking. Public health needs a highly skilled 
        workforce, state-of-the-art data and information systems and 
        the policies, plans, and resources to meet the routine and 
        unexpected threat's to Americans' health and well-being.
---------------------------------------------------------------------------
    \9\ Statement of Janet Hamilton, Council of State and Territorial 
Epidemiologists before House Labor-HHS-Education Appropriations 
Subcommittee, April 9, 2019. https://cdn.ymaws.com/www.cste.org/
resource/resmgr/pdfs/pdfs2/20190409_lhhs-testimony-jjh.pdf.
---------------------------------------------------------------------------
  <bullet> Accelerate crisis responses by funding standing emergency 
        response funds, such as the Infectious Disease Rapid Response 
        Reserve Fund (IDRRRF). We applaud Congress for including $300 
        million in the supplemental to replenish the IDRRRF. As we have 
        seen during this crisis, having a ready reserve fund to 
        jumpstart the public health response can be critical in the 
        early days of an outbreak, as the Secretary of HHS has tapped 
        $105 million to support the early response. These funds serve 
        as a bridge between underlying preparedness dollars and 
        supplemental funding. Congress should continue to invest in the 
        IDRRRF in the annual appropriations process.
  <bullet> Ready the health care system for outbreaks. Hospitals, 
        health centers and other clinical facilities across the Nation 
        are preparing to identify, isolate, and care for patients with 
        COVID-19. They must do so without interrupting the routine and 
        necessary clinical services for those with other health care 
        needs. This will require training for health care workers on 
        the identification of COVID-19 cases, on appropriate infection 
        control practices, and treatment. Health care must prioritize 
        the protection of patients and health care workers. The health 
        care sector needs resources for some of these activities and to 
        ensure it has appropriate personal protective equipment, 
        necessary clinical supplies and equipment, and surge capacity. 
        Unfortunately, funding for the Hospital Preparedness Program 
        (HPP), which provides funding and technical assistance to every 
        State to prepare the health care system to respond to and 
        recover from a disaster, has been cut nearly in half since 
        2003.\10\ Congress should prioritize funding for health care 
        preparedness even after this outbreak is under control.
---------------------------------------------------------------------------
    \10\ Funding for HPP has declined from $515 million in fiscal year 
2004 to $275.5 million in fiscal year 2020. http://
www.centerforhealthsecurity.org/our-work/pubs_archive/pubs-pdfs/2009/
2009-04-16-hppreport.pdf.
---------------------------------------------------------------------------
  <bullet> Provide long-term funding for the end-to-end medical 
        countermeasures enterprise, including the Biomedical Advanced 
        Research & Development Authority (BARDA) and the Strategic 
        National Stockpile (SNS). Together, these programs help build 
        the pipeline of countermeasures for diseases that do not have a 
        natural marketplace. We are seeing this play out today, as 
        companies were not previously researching novel coronavirus 
        countermeasures, so government partnership is needed to 
        incentivize participation.
  <bullet> Build the pipeline of public health workforce through 
        training, loan repayment, and other incentives. Modern 
        biodefense requires a well-trained workforce before emergencies 
        take place. Although supplemental funding will hopefully help 
        with hiring at the State and local levels, this short-term 
        funding does not allow for long-term recruitment and retention 
        of workers. Emergency preparedness and response are personnel-
        intensive endeavors that require training, exercise, and 
        coordination across sectors. This experience cannot be built 
        overnight.
  <bullet> Provide job-protected paid sick leave to protect workers and 
        customers from infectious disease outbreaks. One of the 
        recommendations we have heard over and over from public health 
        leaders is to stay home when sick. For millions of Americans, 
        that is not a realistic option--they risk losing paychecks and 
        possibly their jobs if they stay home when sick or to care for 
        a loved one. Paid sick days are even less available for low-
        wage workers and those who are in service industries, such as 
        food service.\11\ The public health evidence is clear: For 
        example, when employees who did not have access are granted 
        sick leave, rates of flu infections decreased by 10 
        percent.\12\ Employers, especially in the health care sector, 
        should be adjusting their paid sick days policies now to help 
        control the outbreak, and TFAH recommends Congress pass a 
        Federal law to require most employers to offer paid sick days 
        as soon as possible.
---------------------------------------------------------------------------
    \11\ Serving While Sick: High Risks and Low Benefits for the 
Nation's Restaurant Workforce, and Their Impact on the Consumer. New 
York: Restaurant Opportunities Centers United, September 30, 2010. 
http://rocunited.org/wp-content/uploads/2013/04/reports_serving-while-
sick_full.pdf.
    \12\ Pichler S and Ziebarth N. The Pros and Cons of Sick Pay 
Schemes: Testing for Contagious Presenteeism and Shirking Behavior. 
Cambridge, MA: National Bureau of Economic Research, Working Paper 
22530, August 2016. https://www.nber.org/papers/w22530.
---------------------------------------------------------------------------
                         the covid-19 response
    It is clear that the Nation has transitioned from planning phase to 
response and mitigation of COVID-19. In addition to TFAH's on-going 
recommendations, we recommend some steps specific to this outbreak:
  <bullet> Implement emergency funding as quickly as possible. We 
        applaud Congress for quickly approving a robust emergency 
        Federal funding package, with significant investments in 
        domestic and global public health, health care preparedness and 
        research and development of medical countermeasures. Federal 
        agencies should be preparing now to quickly distribute funds to 
        States and other partners, as any delay could cost more lives. 
        We must minimize administrative delays in getting money into 
        the hands of health agencies that need to move quickly to 
        respond.
  <bullet> Science is key to effective response and should drive policy 
        decisions. Science needs to govern the Nation's COVID-19 
        response, led by Federal public health experts--including 
        leadership at the Centers for Disease Control and Prevention 
        (CDC) and National Institutes of Health (NIH)--who have years 
        of experience in responding to infectious disease outbreaks. 
        Policy decisions--from the Federal to the local level--should 
        also be based on the best available science. Communities that 
        are considering school or business closures or similar measures 
        should consider unintended consequences and take appropriate 
        action steps. If closings are necessary, authorities should 
        assist families for whom such action is especially problematic, 
        such as low-income families and individuals without paid sick 
        leave and children who rely on school meals for adequate 
        nutrition. Nearly 100,000 schools and institutions serve free 
        and reduced meals to 29.7 million students each day.\13\ The 
        U.S. Department of Agriculture should be implementing 
        flexibility for schools to make grab-and-go meals and other 
        options available if schools are to close.\14\ Home-bound 
        individuals who need access to health care personnel, 
        equipment, and medications may also need additional assistance.
---------------------------------------------------------------------------
    \13\ National School Lunch Program. U.S. Department of Agriculture 
Economic Research Service. https://www.ers.usda.gov/topics/food-
nutrition-assistance/child-nutrition-programs/national-school-lunch-
program/.
    \14\ School Nutrition Association Letter to USDA, March 5, 2020. 
SNA. https://schoolnutrition.org/uploadedFiles/News_and_Publications/
SNA_News_Articles/Coronavirus-Options-Letter.pdf.
---------------------------------------------------------------------------
    Keeping the public and partners informed will be critical. CDC and 
        other Federal agencies are communicating frequently with public 
        health departments and other sectors. We encourage elected 
        officials and community leaders at all levels to make policy 
        and communications decisions based on the best available 
        science and public health guidance, understanding that the 
        situation is evolving rapidly, and messages must change.
  <bullet> Respond quickly and continue to address the spectrum of 
        health needs in our communities. We know that people with 
        underlying health conditions are at higher risk for severe 
        health outcomes from COVID-19. Unfortunately, 6 in 10 adults in 
        the United States have a chronic disease, and 4 in 10 have 2 or 
        more.\15\ So it is vital, while Congress is supporting health 
        departments to respond to this outbreak, that we also pay 
        attention to the on-going health threats public health is 
        working to address--from obesity, to substance misuse and 
        suicide, to tobacco and vaping. We need to support the on-going 
        public health activities that will make our communities 
        healthier and reduce risk for COVID-19.
---------------------------------------------------------------------------
    \15\ Chronic Diseases in America. CDC National Center for Chronic 
Disease Prevention and Health Promotion. https://www.cdc.gov/
chronicdisease/resources/infographic/chronic-diseases.htm.
---------------------------------------------------------------------------
    The full extent of the outbreak in terms of public health, health 
care and economic costs remains to be seen. We do know that taking 
immediate steps to mitigate the effects of the outbreak will save lives 
and prevent harm. Thank you for the invitation to participate today, 
and I look forward to your questions.

    Mr. Payne. Thank you.
    I now recognize Dr. Dobbs to summarize his statement for 5 
minutes.

   STATEMENT OF THOMAS DOBBS, MD, MPH, STATE HEALTH OFFICER, 
             MISSISSIPPI STATE DEPARTMENT OF HEALTH

    Mr. Dobbs. Chairman Payne, Ranking Member King, 
distinguished Members of the committee, thank you all so much 
for having me.
    Oh, let me get a little closer. Yes, is that better? All 
right, great, thanks.
    Hey, thank you all for having me. I really look forward to 
the opportunity to talk a little bit about why public health is 
important. Why is it different from health care? Why is it 
really relevant to what we are talking about right now?
    When I was in medical school back in the 1990's, I thought 
I was going to be a medical scientist. I spent--in my initial 
part of my career, and much of what I was doing, I was working 
on HIV control and tuberculosis control, not only in the 
American south, but also too in Southeast Asia and in Russia.
    I learned a lot, not only about medical things, but the 
value of public health. If you want to have an impact on what 
goes on in a community, you can't look simply at the 
individual. You have to look at the community and the 
environment that surrounds that person. It is this public 
health investment that allows us to do the work that we need to 
do to make sure that the public, the community, and the 
individual is maximally protected.
    Now, switching a little bit to the coronavirus 
conversation, so coronavirus is a virus. Although most people 
will get over it without a lot of sequelae, it will be very 
impactful, especially for older folks. As we have seen, the 
mortality rate among older people infected has been really bad. 
We need to make sure that we tailor our responses to those that 
are going to be most affected.
    We have tools in place now that public health has been 
using for years to look at different things. In Mississippi, 
for instance, we have these massive--well, significant flu 
outbreaks in nursing homes every year. We have learned very 
quickly that, if we implement those basic public health 
responses like rapid identification, immediate isolation, 
quarantine, restricting visitation, that we can actually 
severely limit the impact on our older folks.
    The things that we have learned year after year from not 
only our sort-of micro outbreak responses, but also too from 
these major things like H1N1--we are talking about Ebola, Zika, 
chikungunya, we build up expertise, we build up capacity, we 
build up tools. When we talk about Ebola virus, we scrambled, 
right, because it was a new thing. What do you do? We are--you 
know, the community is really scared about what is going to 
happen with people in the community.
    So we basically put together technology to do home 
monitoring, using mobile devices. But building on that 
foundation, we were then able to go on to use this for our 
folks coming over for coronavirus. These historical lessons 
help us work to the future.
    But one of the challenges that we face is this funding up 
and down, where sometimes we will get specific money to address 
a specific issue like Zika, or like Ebola. But then, as that 
crisis resolves, or sort of diminishes, then we are--have to 
contract back to a state of acceptable, but not sufficient 
readiness.
    When we look at what is going on in Mississippi right now, 
we have activated our agency emergency response functions, and 
we are working closely with our State emergency management 
agencies. Within Mississippi and other States we have a 
pandemic response plan that is tailored to influenza, but we 
know that the elements within that plan are well-suited to the 
response for pandemic coronavirus. Pulling together different 
experts within our State, especially under the--Governor Reeves 
passed an executive order putting a new planning committee--we 
are going to leverage that information that we got from 
responding to H1N1, making sure we are prepared for that next 
flu pandemic to move forward.
    But we can't really make sure that we advance those efforts 
unless we have some steady funding, and don't go through this 
perpetual sort-of roller coaster cycle of funding for one thing 
that is limited to that, don't have the flexibility then to use 
it for the next thing. I really think that we could almost use 
less money, if given more stably over time, and be more 
effective if we were able to be prepared for the next thing.
    Also, let's talk about innovation. I think innovation is 
very important, making sure that we innovate not only in 
technology for surveillance, because the things that we use for 
public health are high-tech, data-rich environments.
    We are just recently in Mississippi invested in artificial 
intelligence, business analytics, trying to look at what is 
going on with outbreaks in our State. These are things that are 
not inexpensive, but it is not only the software, it is also 
the people that you have to do that. If you want to have the 
best people doing the most important job, we need to make sure 
that we build up our public health work force, and have the 
people there that can do what they need.
    Then telehealth, I would like to really say I appreciate 
the creativity of expanding telehealth options as we are 
looking at this COVID response, because what is going to be 
better than making sure people can be getting care of their 
home, either if they are unable to get out, or if they are ill, 
or if they are being monitored, but also too these older folks 
who might need to be coming in for another non-medical reason 
besides a viral illness. They can stay home and be cared for, 
not come into the health care environment, where they are going 
to be exposed to these potentially dangerous things. We are 
proud in Mississippi to have a Telehealth Center of Excellence, 
where we are advancing telehealth capabilities to reach people 
in all sorts of areas, and the department of health has 
partnered with them.
    I would like to thank you for the funding coming down. We 
will put it to good use, and make sure we do our best to cut 
off this epidemic. Thank you.
    [The prepared statement of Mr. Dobbs follows:]
                   Prepared Statement of Thomas Dobbs
                             March 10, 2020
    Chairman Payne, Ranking Member King, and distinguished committee 
Members, thank you for the opportunity to appear before you today to 
discuss the evolving novel coronavirus (COVID-19) threat; what may well 
be the pandemic of our generation. I am here today to discuss the 
Nation's COVID-19 response from a State and local perspective as 
experienced through the public health system in Mississippi.
    COVID-19 is a virus that causes a febrile respiratory syndrome 
similar to influenza. Although many have died world-wide, most cases 
will have mild or even no symptoms. The vast majority of people 
infected with COVID-19 will fully recover. Older adults and those with 
chronic medical conditions are far more likely to experience severe 
manifestations of the disease. COVID-19 is spread primarily from 
person-to-person via infectious respiratory droplets, much like 
influenza and other common respiratory viruses. Based on these 
transmission characteristics, measures to limit the spread of the 
disease will be focused on limiting contact with infectious patients 
and decreasing the likelihood of the public encountering the virus in 
public settings. To protect health care workers, strict adherence to 
infection control practices and the use of personal protective 
equipment (PPE) will be necessary. The increased utilization of 
protective equipment is certain to strain the supply chain, leading to 
resource gaps in certain areas. An increase in patients requiring 
hospitalization and intensive care will strain bed capacity. Staffing 
to care for an increased number of severe cases may be difficult, 
especially if health care workers are ill and must stay home for 
prolonged periods. There is currently no antiviral treatment or vaccine 
for COVID-19.
    In addition to strains on the health care system, the public health 
system will be greatly challenged to meet the need. The public health 
system plays a unique role in protecting the safety and well-being of 
the public. When viewed through an historical lens, the majority of 
health and longevity gains achieved in our society are attributable not 
to clinical health care, but to public health activities that assure 
that people have clean water, safe food, healthy environments, and that 
they do not succumb to outbreaks of infectious diseases. This system, 
especially at the State and local level, serves to ensure that disease 
outbreaks are detected quickly and addressed promptly. These are 
functions that cannot be performed by the traditional health care 
system. Within each local jurisdiction, legal mandates charge public 
health authorities with monitoring and responding to disease outbreaks 
in a manner that is not achievable through entities such as clinics and 
hospitals. At the State and local level, systems and staffing are in 
place to ensure rapid detection of communicable disease. Trained staff 
ensure disease cases are located, isolated, and treated; not only for 
the benefit of the individual but also to the benefit of broader 
society by preventing additional disease from being transmitted. These 
actions are always in play at the State and local level, addressing 
diseases such as tuberculosis, syphilis, HIV, and localized outbreaks. 
Within the context of COVID-19, these systems have been activated in 
Mississippi to track down at-risk travelers, maintain isolation and 
quarantine, respond to outbreaks, and implement broader control 
measures. At a level above these localized responses, coordinated 
surveillance systems must be maintained and activated to support the 
entire endeavor and coordinate across jurisdictions. These activities 
are further coordinated with Federal partners such as the Centers for 
Disease Control and Prevention. Staffing and maintaining this complex 
and data-intensive infrastructure requires talent, funding, highly-
specialized skill sets, and access to sophistical information 
technology.
    When the public at large is threatened by pandemic illness, a 
closely coordinated response with State, local, and National emergency 
response systems is required. This coordination allows for a 
unification of mission and the capacity to bring multiple partners into 
the response framework, such that resource needs from all sectors can 
be deployed for a common purpose. The key element that makes these 
endeavors successful is unified command. This concept ensures that all 
partners are incorporated into the larger effort, and that they are 
accountable to a singular leadership that assures activities are 
coordinated and effective. In Mississippi, we are fortunate that our 
State public health agency is well-integrated into State and local 
emergency response activities. The State department of health maintains 
a constant staff presence within the State emergency operations center, 
ready to fulfill our response function in concert with the Mississippi 
Emergency Management Agency (MEMA). Our local Emergency Response 
Coordinators maintain close connections to the county Emergency 
Management Agencies, ensuring that we are ready to act quickly in the 
event of a local crisis. Our State-wide essential services function 
health care coalition (MEHC) incorporates State and local government 
agencies with external health care organizations for the purposes of 
joint planning, the rapid dissemination of information, determining 
resource needs, and response coordination. (For MEHC members see 
Appendix 1.) All of these close relationships are only reinforced by 
our regular, joint activations for natural disasters and other events.
    Mississippi sits in a state of readiness for the arrival of COVID-
19, with an expectation of community transmission in the near future. 
As a component of our public health response, the Mississippi State 
Department of Health has been placing all at-risk travelers on limited 
quarantine. Our public health nurses have been directly monitoring 
every at-risk person twice daily for symptoms of COVID-19, using our 
established telehealth home monitoring platform that was initially 
designed to assist in the management of patients with tuberculosis. As 
of March 7, 2020, there have been no confirmed cases of COVID-19 in 
Mississippi. Testing for COVID-19 in Mississippi is available through 
the Mississippi State Department of Health and certain private labs. At 
the present time, we have sufficient capabilities to meet testing 
demand. As the lead agency for pandemic response, the Mississippi State 
Department of Health is working closely with the Mississippi Emergency 
Management Agency (MEMA) in anticipation of the arrival of COVID-19.
    On March 4, 2020, Governor Tate Reeves signed an executive order 
forming the Mississippi Pandemic COVID-19 Steering Committee. Based on 
the foundation of the Mississippi Pandemic Influenza Steering 
Committee, this broad team of State partners will refine the existing 
pandemic plan to meet the specific needs of a COVID-19 pandemic. The 
pandemic response plan is an organizational roadmap that helps 
coordinate all partners, in a common mission, to meet the needs of 
Mississippi citizens. Such coordination is key for a pandemic event, as 
multiple components of society, businesses, schools, health care, 
critical infrastructure, and government are likely to be affected. Non-
pharmaceutic interventions, activities that limit the spread of disease 
in the absence of vaccine or medications, will be core activities in 
the COVID-19 response. These include actions such as isolation, 
quarantine, social distancing, and school closures. These 
interventions, and their disruptive sequelae, require multi-agency 
coordination and close collaboration with external, community partners. 
The current pandemic influenza plan, which is updated annually, 
contains essential elements that are relevant not only to influenza but 
to any pandemic respiratory illness that is spread through similar 
mechanisms. This continuous planning effort, supported throughout the 
years with Federal funding, is absolutely essential to ensure 
Mississippi is prepared to execute a response in a timely manner. This 
existing plan includes directives for all State agencies under the 
existing Essential Services Functions as defined in the State's 
Comprehensive Emergency Management Plan. The 2019 Mississippi Pandemic 
Flu Response Plan, an Annex to the State's Comprehensive Emergency 
Management Plan, serves as the source document for our COVID-19 
response. This Annex establishes a framework for the management of 
State-wide operations, under a unified command, with appropriately 
scaled and structured responses. It establishes policies and procedures 
by which the State can coordinate local and State planning, response 
and recovery efforts. This plan follows the National Incident 
Management System (NIMS), a tool that ensures a consistent approach for 
all levels of governments, while incorporating private sector and non-
governmental organizations, to work together in incident response, 
regardless of cause, size, or complexity.
    The State of Mississippi is grateful for the emergency supplemental 
funding being made available through HHS to combat COVID-19. With this 
funding, Mississippi will be able to augment testing capacity, fund 
State response efforts, enhance disease surveillance, implement 
community mitigation strategies, fill critical resource gaps such as 
PPE and medical supplies, improve communications, support health care 
delivery, support the critical social needs of the public, support 
fatality management and maintain critical infrastructure. Recently-
enacted approaches to telehealth funding, such as permitting Medicare 
patients in some areas to access the service from home rather than a 
clinic setting, will greatly assist in community mitigation efforts by 
improving efficiencies, permitting ill patients to stay home, and 
allowing non-COVID-19 patients access to health care without coming 
into physical contact with a clinical environment. The emergency 
supplemental funding approved last week is a critical first step to 
assist State and local health departments in their response efforts. 
Recognizing that we do not yet know the extent to which this virus will 
impact our health care and public health systems overall, it is 
important to acknowledge additional supplemental funding might be 
needed in the future.
    Steady Federal support, through the CDC Epidemiology and Lab 
Capacity grant, the Public Health Emergency Preparedness cooperative 
agreements and the HHS ASPR Hospital Preparedness Program, are 
essential mechanisms for supporting action at the State and local 
levels. Without these programs, meaningful action at the community 
level would be severely hampered. The COVID-19 response is but one of 
many activations that I have experienced in my public health career. 
Threats such as the West Nile Virus, pandemic H1N1 influenza, 
Chikungunya, Zika, the opioid epidemic and Ebola give us historical 
perspective of what we are likely to face in the future; a steady 
stream of natural and man-made threats that will continue to undermine 
our Nation's health and prosperity. Although different in nature, the 
public health response infrastructure needed to address them is largely 
the same. Support for these responses is often reactive and specific to 
a specific disease event. Maintaining a robust and capable public 
health response system takes a steady investment in time and effort. 
The necessary skill sets, staffing, and technology are not readily 
scalable in the event of acute need. As you consider future investments 
in protecting the safety of your constituents, I would ask you to 
consider steady and sustained investment in our public health 
infrastructure. Stable support over time will permit us to remain in a 
state of perpetual readiness rather than diverting essential resources 
away from other public health issues when we must rapidly escalate a 
response in the event of a crisis.
    Appendix 1.--Members of Mississippi ESF-8 Health Care Coalition
  <bullet> Agriculture & Commerce (MDAC)
  <bullet> Agricultural Theft & Consumer Protection
  <bullet> Animal State Board (MBAH)
  <bullet> Assisted Living (ALFA, INHA, MHCA, MCAL)
  <bullet> Community College State Board (MCCB)
  <bullet> Coroners & Medical Examiners Association (MSCMEA)
  <bullet> Dental Association
  <bullet> Dental Examiners State Board (MSBDE)
  <bullet> Dental Services, State Public Health
  <bullet> Dialysis (Network 8)
  <bullet> Education (MOE)
  <bullet> Emergency Management (State, Local, Tribal, MEMA, MCDEMA)
  <bullet> Emergency Medical Services (State, Local, Tribal, MEMS)
  <bullet> Emergency Planning & Response (OEPR) Local and State Public 
        Health
  <bullet> Environmental Quality (MDEQ)
  <bullet> Field Services, Local and State Public Health
  <bullet> Funeral Directors & Morticians Association (MFDA)
  <bullet> Healthcare (MHCA) Home Health
  <bullet> Health Disparity, State Public Health
  <bullet> Health Facilities, LTC, Licensure & Certification
  <bullet> Home Health (MAHC)
  <bullet> Hospice & Palliative Care Association (LMHPCO)
  <bullet> Hospitals: MHA, Military, Parchman, UMMC, VA
  <bullet> Human Services (MOHS)
  <bullet> Institutions of Higher Learning (IHL)
  <bullet> Medicaid
  <bullet> Medical Licensure State Board (MSBML)
  <bullet> Mental Health (MDMH)
  <bullet> Mortuary Response Team (MMRT)
  <bullet> National Guard (Army NG, Air NG)
  <bullet> Nursing State Board (MSBN)
  <bullet> Pharmacy State Board (MBP)
  <bullet> Primary Health Care (MPHCA)
  <bullet> Public Health (State, Local, Tribal, MPHA)
  <bullet> Policy & Planning, State Public Health
  <bullet> Public Safety (MOPS)
  <bullet> Rehabilitation (& Vocational) (MDRS)
  <bullet> Rural Health/Primary Care
  <bullet> Salvation Army
  <bullet> State Emergency Response Team (SERT)
  <bullet> State Fire Academy
  <bullet> Transportation (MOOT)
  <bullet> Veterinary Medical Association
  <bullet> Women, Infant & Child (WIC)

    Mr. Payne. Thank you. I will now recognize myself for 5 
minutes of questioning.
    This question would be to all the panelists. Many have 
criticized the administration's outbreak response for being too 
slow to realize the severity of the threat. How would you 
assess the U.S. Government's response, and what aspects of the 
Government's response could you--could be improved upon?
    Mr. Klain.
    Mr. Klain. You know, Mr. Chairman, I would say there is two 
things where we are lagging quite badly.
    The first is this testing issue. Again, as I said in my 
statement, there is no reason why other countries--South 
Korea--are so far ahead of us, 100,000-plus tests in South 
Korea, less than 5,000 in the United States. I think that is a 
product of some bad decisions made at the CDC, and a lack of a 
real effort to accelerate testing around the country.
    The second thing I think is hospital preparedness. In 
various communities our hospitals are going to see an influx of 
cases, and I don't think they have been prepared for dealing 
with that, whether that is working with FEMA to temporarily 
ramp up capacity in those hospitals, or to do things like they 
are doing in Korea and Germany, with drive-through testing, 
other things. We need to be creative and flexible, but really 
increasing the capacity of our system to deal with the influx 
of cases we are going to see.
    Mr. Payne. OK, thank you.
    Mr. Neuwirth.
    Mr. Neuwirth. So I would agree with Mr. Klain, in that the 
testing capabilities of each State are something that, you 
know, needs to be addressed. Here in New Jersey, we have only 
received 2 test kits to date. I am recognizing that, you know, 
our 9 million residents are actively dealing with SARS-CoV-2, a 
coronavirus. We would expect additional capacity in the State 
of New Jersey to effectively and efficiently test everybody 
that needs to be tested. To date, those 2 tests, 2 test kits, 
you know, are something that needs to be addressed.
    The second is that, recognizing how fast-moving the 
situation was even back in January, it is important that 
information be shared in a timely manner as effectively as 
possible, and ensuring that decisions made at the Federal level 
are effectively communicated to the State to ensure that the 
States are in a position and maintaining a posture to implement 
those policy decisions made at the Federal level. The greater 
lead time that the States are given, the more effective and 
appropriate those implementations are.
    Mr. Payne. Thank you.
    Ms. Gracia.
    Ms. Gracia. Yes, I would emphasize the importance of the 
coordination and, really, coordination across agencies, and 
having senior-level coordination as we are seeing now through 
the White House with the coronavirus task force.
    Second, the importance of continuing to rely on the science 
and the evidence to make decisions, whether it is policy 
decisions, public health guidance that is being put out by the 
Federal agencies, that we continue to rely upon the expertise 
and the experience of the scientists, as well as the medical 
and public health experts.
    Mr. Payne. So we need to believe and trust the science that 
is coming along. Thank you.
    Dr. Dobbs.
    Mr. Dobbs. Yes, thank you. You know, it has been a very 
complicated and rapidly-evolving situation. I understand it is 
very challenging.
    By and large, CDC has been very responsive to our needs. I 
can call the leadership pretty quickly. We, in Mississippi, we 
are a little bit behind in the sense that we don't have much in 
the way of testing. But we do have adequate testing 
capabilities at this time.
    I would say that, early on, if we were given some more 
flexibility in who we test, I think that would have been good. 
There were pretty strict guidelines at the beginning.
    The other thing is, you know--and this is part of 
preparedness, to begin with. I think the CDC coordination with 
Border Patrol was a little bit difficult at the very first, 
when we were getting our travelers in. We had a little bit of 
hiccups with that. But they have been very responsive, and it 
is a difficult situation. I just really do appreciate the work 
of CDC and the assistance that they give us.
    Mr. Payne. Thank you. In the interest of time, the Chair 
will recognize the gentleman from New York, the Ranking Member, 
Mr. King.
    Mr. King. Thank you, Mr. Chairman. Let me just, I guess, 
ask Mr. Neuwirth and Dr. Dobbs.
    Again, you sort-of touched on this already, but what 
improvements could be made in coordination with the Federal 
Government now?
    I mean allowing for whatever has gone wrong in the past, 
but as of today forward--or I would say the last several days 
going forward, how do you see the level of coordination, and 
what improvements can be made?
    Mr. Dobbs. Yes. Well, I think the coordination even among 
Federal agencies would be good, because we have seen some 
missed communications between those levels, which then kind-of 
trickles down to us. That can be a little bit difficult. You 
know, quick communications are very important. By and large, I 
think that has been very good.
    I think clear understanding of what funding is going to be 
available, and what we can use it for.
    Also, I can't say how much I support the hospital 
preparedness program. I think that that has been cut some over 
the years. That is really a foundational element for these 
sorts of responses. We have pulled back from, I think, actually 
cashing up as many supplies and PPEs we had in years past, 
because that has--the priority on that has shifted a little 
bit. I think that would be very important.
    Mr. Payne. Mr. Neuwirth.
    Mr. Neuwirth. Specifically referencing Joint Base McGuire, 
Joint Base McGuire-Dix-Lakehurst, you know, this is a base used 
by our Federal partners as a potential housing solution for 
quarantined individuals. New Jersey has put forth a remarkable 
amount of support and resources to ensuring that this housing 
solution remains intact and fully functional to meet the 
demands of the situation. You know, the base was operational 
for an initial 2-week period, and the State, up until the 
absolute deadline of Friday at 8 a.m., was unaware whether or 
not that--the base would remain operational for the quarantine 
for--as a quarantined housing solution.
    So ensuring that, you know, New Jersey can appropriately 
support, you know, this housing solution moving forward, you 
know, this is one example of where understanding where the 
Federal Government sits, as far as continuing this operation, 
and how we can best support it is important to us.
    Mr. Payne. Mr. Neuwirth, since New York and New Jersey are 
so close, I have a very parochial interest in this. We have 
probably tens of thousands of more commuters back and forth 
every day. How--what is the level of coordination between the 
States?
    Also, I know Governor Cuomo has gotten approval from New 
York to do its own testing. Has New Jersey applied for that 
approval?
    Mr. Neuwirth. So yes. So we are doing our own testing in 
the State. Right now, as of today, the State's public health 
and environmental laboratories is the one in New Jersey 
performing the tests in-State, ensuring a rapid turnaround time 
as best we can. We are in lockstep with our New York City and 
New York State partners.
    You know, we have, you know--historically, we have had a 
phenomenal relationship with the city and the State, just 
because of our close proximity, the way we manage and deal with 
the risk together, how we conduct our preparedness response 
activities. They are often in lockstep. So it is the historical 
relationships that we have been able to leverage for this event 
that has ensured the relationship has been maintained and 
leveraged, so that both sides of the river are fully aware what 
the other side is doing, so that we are--we remain in lockstep.
    Mr. King. Thank you.
    Mr. Klain, first of all, let me thank you for your efforts 
in Ebola. It was outstanding. I give you full credit for that.
    Governor Cuomo announced something today, and I just 
wondered if this was ever contemplated, if the Ebola virus had 
not been contained the way it was. He has actually ordered the 
National Guard in to Westchester County and New Rochelle. It is 
going to be a 1-mile containment zone. Basically, it originates 
from a synagogue. That is--I think now there must be 50 to 100 
cases, if not actually diagnosed, but certainly people being 
tested from that area.
    Was that ever something that was contemplated by you? I 
know it is really--I support the Governor doing it, but I can 
see, if it is carried to a larger level, it is--basically, it 
is going to shut down almost any community center, house of 
worship, school. It will leave certain businesses open. But did 
you contemplate how that would actually be implemented?
    Mr. Klain. Congressman, we did not. We never expected to 
have that many cases of Ebola in the United States. We were 
focused on isolating people when they came here from West 
Africa, and getting them promptly into treatment.
    I do think, though, that this subcommittee should look at 
the issue raised by this, you know, kind-of quasi-quarantine of 
New Rochelle, and what other measures could be effective.
    I also think thinking about the National Guard or FEMA to 
help increase hospital capacity, tent hospitals, or rapid 
treatment centers, I think, you know, we are going to need 
person power to help respond. At a time when our health care 
system--you know, we see doctors and nurses drop out because 
they are sick. They are going to get the virus, too. So I 
think, you know, thinking creatively about who can really help 
power this response is an important thing.
    Mr. King. So as far as--oh, I am sorry. My time is--I yield 
back. Thank you.
    Thank you very much.
    Mr. Payne. Thank you. The Chair now recognizes the 
gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. I thank our 
Ranking Member and our expert panelists for coming in to share 
your expertise with us today.
    We know that America needs a fully-funded, whole-of-
Government response to stay safe against the coronavirus. In my 
home State and city of New York, we are in the midst of an 
unprecedented health crisis. Leaders should not minimize or 
exaggerate the scale of the task before us. We can beat the 
coronavirus, but the administration needs to set politics aside 
and put scientists in the driver's seat.
    Having said that, Mr. Klain, after weeks of stating that 
enough resources were available to fight the coronavirus, the 
Trump administration finally announced that it was seeking an 
emergency supplemental to make additional resources available. 
This request was made more than a month after the first 
recorded case of coronavirus was discovered in the United 
States.
    How would a timelier response--or how would a timelier 
request, excuse me, have helped the United States respond 
better?
    Mr. Klain. Congresswoman, I think that is a good question. 
I testified before the Foreign Affairs Subcommittee about a 
month ago, and said that the request should already be here, 
and Congress should be acting on it. I do think that more 
funding might have accelerated this testing situation, might be 
helping States more quickly.
    I think it is important to know, again, Congress deserves 
great credit for passing this funding quickly. But the real 
question is how quickly does it go from Washington out to the 
States. The gentlemen and ladies to my left here, you know, 
they are going to have to actually make this work on the 
ground, and they can't unless the money moves from Washington 
to them. I think that is really where we should be focused on 
now, is once Congress did this incredible thing of, in 2 weeks, 
writing and passing a bill, is the money really getting out 
there to ramp up testing, to ramp up health care systems, to 
help the people who are going to need the help.
    Ms. Clarke. Very well. So this question is for both you and 
Dr. Gracia.
    I think many of us in Congress were shocked and 
disappointed that the administration's initial proposed amount 
for the emergency supplemental was only $2.5 billion. Luckily, 
Congress passed an $8.3 billion supplemental that was 
significantly more robust than the administration's request.
    What more can the Government do to ensure that there is 
enough funding to support State and local outbreak response 
efforts?
    I would add to that, leaving an infrastructure in place so 
that we are not rebuilding the infrastructure time and time 
again as these outbreaks occur, because certainly there will be 
others.
    Mr. Klain. You know, Congressman, I agree with that so 
strongly, and I kind-of agree with what Dr. Dobbs said earlier. 
The issue sometimes is the amount of money, and the other issue 
is the consistency of the funding.
    We today are in the middle of an epidemic. That is what we 
are focused on, as we should be. But we are only 3 years away 
from the next one, and 3 years from the one after that, and 3 
years from the one after that. It is these boom-and-bust cycles 
in funding that really undermine our preparedness.
    I think--I hope that what Congress will take out of this is 
great job on the emergency supplemental, but what are we doing 
to prepare for the big threat that is out there in the future?
    Ms. Gracia. Thank you, Congresswoman. You raise a very 
important point and question. One is a recognition that I think 
you certainly have, that public health departments at the State 
and local level, they are truly our first line of defense as it 
relates to these types of outbreaks, to other natural disasters 
where there are public health consequences. What we have seen, 
however, is that there really has been a longer-term 
underfunding of public health, and that there have been cuts 
that have really impacted public health departments at the 
State, local, Tribal, territorial levels.
    We look at, for example, the Public Health Emergency 
Preparedness Grant that is administered by the CDC, that that 
has experienced cuts over the years, 20 percent, more than 20 
percent over the past decade; where the hospital preparedness 
program, which has been cut in half since 2003. These are 
important funds to really be able to support public health over 
time, to be able to continue to have the type of emergency 
preparedness response infrastructure for surveillance for the 
work force. It is very difficult to hire individuals for the 
short term, and be able to guarantee that they are going to be 
able to stay on board, and really build that training and 
capacity within the public health departments.
    There also is a need for more funding as it relates to the 
core capabilities in public health, things like pandemic 
preparedness, but also communications expertise, epidemiology, 
and surveillance expertise, the ability to bring together 
coalitions. These types of areas are truly fundamental for core 
public health.
    Ms. Clarke. The Trump administration has repeatedly 
attempted to cut funding to public health. Could you describe 
how chronic underfunding of public health makes the United 
States more vulnerable to outbreaks?
    Yes, I am sorry, Ms. Gracia.
    Ms. Gracia. Certainly. So I think one is to recognize that 
we have made, actually, important progress, in particular over 
the past 2 decades, as we look at public health's level of 
preparedness, in particular since the September 11 attacks. 
That--there was a recognition that public health really is part 
of the National health security enterprise, and that we needed 
to really bolster that infrastructure, which is inclusive of 
laboratory capacity, the work force, being able to have the 
surveillance systems in place, and communication systems in 
place, as well as looking at coalitions that can be built 
between public health and health care.
    But as I noted earlier, what we need to do is really build 
on the expertise from these previous outbreaks and other types 
of public health threats. You know, these are the individuals 
who have been through these types of outbreaks and other public 
health emergencies in the past. Recognizing that--the need to 
have stability in that funding so that it is not at risk.
    We have seen, for example, over the past decade, the budget 
to the Centers for Disease Control and Prevention has declined 
by 10 percent, and a large percentage of CDC's budget----
    Mr. Payne. Please----
    Ms. Gracia [continuing]. Goes to State and local health 
departments.
    Ms. Clarke. Thank you, Mr. Chairman. I yield back.
    Mr. Payne. Thank you. I recognize the gentleman from 
Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Dr. Dobbs, you and I had a chance to visit earlier, before 
your testimony. You and I discussed about the fact that we 
currently in Mississippi have both the ability and the capacity 
to test for COVID-19 in our home State. Can you talk just a 
little bit about that, please?
    Mr. Dobbs. Thank you, sir. Part of it may be that the 
timing was advantageous, but we were able to bring up the COVID 
testing pretty quickly. Our public health lab, within a week of 
getting the reagents and the guidance, was able to get the 
testing activated.
    So far we haven't done a ton of tests. We have done about 
50, but they are all negative. We have got many coming in every 
day. We think we have sufficient capacity to meet demand for 
the near future, but also foreseeing now, with private lab 
capacity coming on-line, like Lab Corps and others, that will 
help with the clinical environment.
    I am looking forward to the opportunity where public health 
can fulfill a different role, which is mostly going to be 
surveillance, so we can have a better understanding of what is 
going on in different communities, and also maybe acute 
testing. You know, we can run it in about 4 hours after we get 
a specimen. So if there is something that needs to happen right 
away, we can execute that.
    Mr. Guest. Can you talk a little bit about your response 
that you have received so far from CDC?
    Mr. Dobbs. In response to the testing, it has been good. 
The information that they have been giving us has been very 
helpful. Their guidance has been very good, especially their 
guidance documents for clinical scenarios.
    I will say their website is kind-of cumbersome. I needed to 
talk to them about that. It doesn't come as fast as you would 
want it, honestly. I mean, we were always sitting on go for the 
next thing. But the quality of the work has been good, from our 
perspective.
    Mr. Guest. Dr. Dobbs, you have talked in your opening 
statement, and some of your questioning, and then in your 
written statement about the use of telehealth, and you say here 
that telehealth will greatly assist in community mitigation 
efforts by improving efficiencies, permitting ill patients to 
stay home, and allowing non-COVID-19 patients access to health 
care without coming into physical contact with a clinical 
environment.
    Could you explain that very briefly again?
    Mr. Dobbs. You bet. If you think about who is at risk for 
bad outcomes from COVID-19, it is going to be older folks, 
primarily, people with chronic medical conditions. These are 
people that are going to access the health care system quite 
frequently. A lot of it is going to be non-urgent, things that 
can be done through a telehealth platform.
    So we have really been pushing hard with our partners at 
UMC. Actually, I was talking with some of the other big health 
systems today, meeting with Blue Cross, trying to help them set 
up systems where they will fund communications with people from 
their home so that you don't have to right now, you know--or at 
least previously, you have to go to another clinic setting 
around a bunch of other people. It is so much more convenient. 
This is not only an opportunity for us to help with COVID-19, 
but maybe even sort-of catapult the future of health care by 
thinking about what telehealth could look like.
    Mr. Guest. Is it conceivable that telehealth could be used 
to help screen individuals as they are coming into the country 
through ports of entry?
    Mr. Dobbs. In a place like Mississippi, especially, where 
we don't have a lot of medical providers, and we have a pretty 
rural geography, if we could leverage telehealth for that 
function, or any other function that requires medical 
intervention, it really does expand our reach remarkably.
    Mr. Guest. Now, Dr. Dobbs, you talked about the importance 
of the Hospital Preparedness Program. Could you expand on that 
just a little bit?
    Mr. Dobbs. If we think about who is the boots on the 
ground, who are the people who are going to respond locally 
when something goes awry, it is going to be those local 
community folks. It is going to be the local emergency 
management folks. It is going to be the hospitals, it is going 
to be the clinic. It is going to be the people who are in that 
area. The Hospital Preparedness Fund helps--lets us organize 
these health care coalitions so that we can have a reach into 
the communities and respond, but also to make sure that 
hospitals are ready, not only in supplies, but also planning, 
because they are going to be at the front line.
    The thing that worries me more about this than anything is 
going to be resource utilization within our hospitals and 
intensive care units. Even now, if we have a bad flu year, we 
run out of intensive care unit beds. So having that core 
infrastructure to make sure that we are ready when something 
above and beyond happens is going to be very important.
    Mr. Guest. So that helps you and your department with the 
logistics as you are trying to find placement for individuals 
who are ill, whether it be with coronavirus or some other 
illness that they would be battling.
    Mr. Dobbs. Yes, absolutely.
    Then also, even within the HPP program, there are some 
flexibilities that might help. Like for instance, we have a 
warehouse of PPE that we sit--that we keep. We have about 
200,000 masks that we can distribute immediately if we need to. 
So we are ready to go. But based on some of the structure of 
that HPP program, we only can use 10 percent of over--of it for 
overhead administration, but they count rent for the warehouse 
as overhead, administration. So we would welcome flexibility in 
funding for HPP, as well.
    Mr. Guest. Dr. Dobbs, very briefly, just for the people 
back in Mississippi, can you talk a little bit about the 
emergency supplemental funding, and what that will be used--and 
how that will be used to fight coronavirus back home?
    Mr. Dobbs. Yes. We have got a laundry list of things we 
want to do. We want to expand surveillance, we want to increase 
lab capacity. We want to expand on our informatics. We have 
already started doing some advanced analytics, using Biosense 
to figure out where cases are going to be. We want to make sure 
that we have resource allocated for, like, PPE or other things 
to support hospitals. We want to--I have already brought on 3 
doctors. I don't know how I am going to pay for them. I guess 
this is how. Then--and nurses, boots on the ground, to get the 
work done, and then advancing technology and equipment and 
other PPE needs.
    Mr. Guest. Thank you, Dr. Dobbs.
    Mr. Chairman I yield back.
    Mr. Payne. Thank you. The Chair now recognizes the 
gentlewoman from Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Mr. Chairman. Thank you to all of 
our witnesses for being here today.
    It is a pleasure to see my former colleagues from the Obama 
administration here today as we chart a path for Congress to 
lead the response to the coronavirus.
    Mr. Klain, what essential leadership functions must our 
Federal Government fill when it comes to helping the public, 
State, and local public health departments, employers, and our 
health care system navigate this public health crisis?
    Mr. Klain. Congresswoman, I think it is a question of both 
competence and confidence.
    So I think, on the competence side, the Government has to 
provide the leadership and the funding to deliver this 
response. This is going to be a giant project, to manage these 
cases, to roll out testing, as the panel has discussed, to help 
our health care system get prepared for the influx of cases, 
and to deal with all the other things, the contact tracing the 
State and local public health departments are going to do as we 
move toward containment, and all these other things.
    So the Government, the Federal Government is going to have 
to provide expertise in the form of the CDC and people at ASPR, 
and BARDA, and other agencies. It has to provide funding, it 
has to provide leadership. But it also has to provide 
confidence. I think we need to see from Washington clear 
direction and messaging so the American people can panic less, 
and can understand that there is a plan in place, and a way of 
attacking it, and so on and so forth.
    I think both those things, you know, we just have not hit 
the mark on that yet. We need to do better on both those 
fronts.
    Ms. Underwood. Thank you.
    Dr. Gracia, you recently published a report evaluating 
States' ability to respond to public health emergencies like 
the coronavirus. What did you learn from publishing that report 
about the actions the Federal Government must be taking to 
support State and local public health departments, in addition 
to providing supplemental funding?
    Ms. Gracia. Thank you for that question, Congresswoman 
Underwood.
    So indeed, we published this report, which, as I noted 
earlier, demonstrates and documents the progress we have made 
overall, with regards to our National health security and 
public health preparedness, but that there are areas for 
improvement, one being this issue with regards to funding for 
States and localities to be able to really respond in a way 
that meets these increasing number and frequency of public 
health threats.
    We also recognize, too, that this is an important area that 
not only involves the public health sector. Often we think 
about these health threats as isolated to public health 
departments. Yet these are issues that really require a multi-
sectoral approach, and one in which we engage various sectors, 
from the business sector to the education sector, the health 
care sectors, and others that are really involved and have a 
seat the table, as well as the community in really driving 
preparedness and response.
    So when we think about what the Federal Government can be 
doing, it is really helping to support that capacity for State 
and local health departments, ensuring that there is that 
stability of funding. So that that type of coordination, that 
expertise, and that capacity can continue to be built in States 
and localities to do exactly as, for example, Dr. Dobbs has 
spoken about, is having the work force that is trained, having 
the laboratory capacity, the surveillance that is needed.
    Ms. Underwood. Awesome. In your written testimony, Dr. 
Gracia, you also touched on how the flu vaccination is a proxy 
measure for our ability to vaccinate a large population once 
the coronavirus becomes the--coronavirus vaccine becomes 
available. Can you expand on that?
    Ms. Gracia. Yes. You know, the flu and what we see, for 
example, with seasonal flu outbreaks demonstrates a couple of 
points.
    One, it shows how public health departments often are 
having to deal with multiple types of crises at the same time, 
and so how they can be stretched with regards to really being 
able to respond to the needs of the public.
    But second, because with the flu vaccine it is a vaccine 
that is recommended for almost a majority of the population--it 
is recommended by the CDC for individuals who are 6 months and 
older--it also demonstrates what our vaccine infrastructure 
looks like, in particular with regards to if we were in need of 
doing a mass vaccination campaign, for example, for adults. 
With children, children are seeing their physicians and other 
health care providers more frequently. With adults that may be 
more difficult.
    So, in looking at how we are actually doing with seasonal 
flu, which, as a Nation, the average--National average for 
seasonal flu vaccination is 49 percent, whereas the actual 
recommendation from the Department of Health and Human Services 
in the Healthy People 2020 is to reach 70 percent----
    Ms. Underwood. Yes.
    Ms. Gracia [continuing]. We recognize that there are 
shortcomings and gaps with regards to that infrastructure that 
entails public health departments, health care, commercial 
entities, as well to ensure that the population is vaccinated.
    Ms. Underwood. Do you want to speak about why flu 
vaccination is such an important part of our response to this 
threat?
    Ms. Gracia. So, in particular, we are currently in the 
midst of, you know, the flu season, and we still have high 
activity across States. You know, it is important that we know 
that the best way in particular to prevent the flu is through 
flu vaccination, and that many of the preventive measures that 
we also talk about with regards to hygiene and hand-washing and 
staying home when sick, that those are similar types of 
preventive measures and guidance that we are providing as it 
relates to COVID-19 and the novel coronavirus.
    So, as we think about what may be needed down the line with 
regards to the types of interventions, really building the 
capacity to respond to outbreaks such as the flu is important 
as we think about outbreaks such as COVID-19. We saw one of the 
deadliest flu seasons in the 2017 and 2018 flu season in nearly 
4 decades. So that really lends to how we, as a Nation, are 
prepared----
    Mr. Payne. Thank you.
    Ms. Gracia [continuing]. For these types of outbreaks.
    Ms. Underwood. Well, thank you all so much for being here 
and for your testimony today. I yield back.
    Mr. Payne. Thank you. The Chair recognizes the gentlemen 
from Texas. All right, the Longhorn State.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you all for 
being here on this important topic.
    This question goes to the gentleman from New Jersey and the 
gentleman from Mississippi. I just want to get your take on the 
proper roles at the State level and the Federal level. We hear 
we are unprepared. We hear we are way unprepared, or we hear we 
are doing pretty well. It is all relative in the end, how well-
prepared we are. So I want to get an idea from you at the State 
level.
    What does preparedness look like at a reasonable and--a 
reasonable standard?
    What is the different function of a local county public 
health center, versus the State level, versus the Federal 
level, what is the best way to interact?
    Mr. Neuwirth. So first and foremost, preparedness looks 
like having the funding and resources needed at all levels of 
government to adequately respond to what we are seeing day to 
day, and that, you know, requires our acute care facilities, 
our hospitals, our long-term care facilities, our health 
departments having whatever they need immediately to conduct 
their job, continue providing high-quality clinical care to 
those that are ill, allow the resources and staffing and 
information needed at the local health departments to ensure 
appropriate case management, contact tracing, and overall 
management of, you know, the pathogen in the communities as 
needed.
    Coordination and communication at all levels of government 
is incredibly important to ensure that the States have a 
unified, coherent strategy on mobilizing all of the 
preparedness activities and resources that they have available 
to them. Without timely information from the top about 
important policy decisions that are being made----
    Mr. Crenshaw. Look, can we get an example? I kind-of want 
to dig into the preparedness, because you basically just said 
when everything is really perfect, that is prepared. But that 
is not reasonable. I asked for a reasonable standard.
    You know, so, I mean, like, how much better can we be, 
reasonably? I mean, I want to have reasonable conversations 
here. Of course I could--we could quadruple your funding, and 
then you would be more and more prepared, and you will come 
back next time and ask for even more money. I know how this 
goes. That is all fine. Of course we want to keep getting 
better.
    But within reason, within a reasonable construct, you know, 
what does prepared look like? How many masks? How many pieces 
of equipment are reasonable to ask for, and that we should have 
had ready prior? What is--what exactly are we not--is the 
Federal Government not communicating to you effectively?
    Mr. Neuwirth. What has been said moments ago, that 
continued funding over, you know, the past several years to 
continue to maintain what we have built upon from previous 
outbreaks such as Ebola, Zika, the opioid crisis. There has 
been a lot of work that has been maintained, but the increases 
and decreases of funding year over year degrades the 
preparedness activities that we have put into place.
    So ensuring that, again, that the resources are available 
to the States----
    Mr. Crenshaw. That the Federal--that is the Federal 
Government's job, to make sure the States have the resources. 
But--so at what--where is the State's role in that, and why 
can't you be ready to the standard that you have set yourself--
set for yourself?
    Mr. Neuwirth. We are ready to the standard we have set for 
ourselves. It is a matter of maintaining that level of 
preparedness year over year. Because in between those years, 
the States are managing disasters, public health, natural 
disasters, technological, that we use those resources and those 
preparedness activities to respond to.
    So it requires tight coordination and support from the 
Federal Government to ensure that, you know, year over year, as 
the States prepare for and respond to various disasters, that 
that capability is rebuilt and, you know, exercised, and ready 
for the next disaster.
    Mr. Crenshaw. Sure. I am just trying to get more details, 
because I am trying to get examples on exactly what--where did 
we fall short, and then what exactly was it, and how can we do 
better the next time. I understand that we always need to do 
more coordination, and that we can talk in vague terms and say 
more funding and more coordination and all of that. We are 
really trying to get into some specifics here.
    Maybe the gentleman from Mississippi could give us some 
insight from Mississippi.
    Mr. Dobbs. Thank you for your question. I think one of the 
things that is important to think about from a State 
perspective--and I have been doing this for a long time--is 
that State budgets are--and county budgets, especially--are 
very susceptible to the business cycle. When they contract, 
they just--they cut indiscriminately. So the stability that we 
see primarily is going to be, for better or worse, there is a 
lot more stability from the Federal funding sources. So those--
that can be kind of the bedrock of public health.
    The other thing that has happened, I think almost 
philosophically, as we have worked to expand the insurance 
coverage to people, which is important, and I think people need 
health care, but there has been an assumption that public 
health and health care are the same thing. They are not at all 
the same. I have about half the nurses I had 4 years ago. So 
how do you respond to a crisis when I can't pull nurses to go 
to houses and check on people?
    So I think this sort-of communication about health care 
versus public health has distracted a little bit from some of 
our core needs.
    Then the other thing, I think relationships is so 
important. So sometimes some places have great relationships 
with the local folks and the counties and stuff. We have those 
relationships pre-built, it is not just a money thing, it is a 
slow investment so that, when things do go bad, we just call 
Joe and say, ``Hey, we got this going on,'' and we know what to 
do together. Again, I think that gets to the stability and the 
steadiness of how much better it is just to have a slow and 
steady approach, than having a more reactive approach.
    Mr. Crenshaw. I am out of time. Thank you, Mr. Chairman.
    Mr. Payne. Thank you. The Chair now recognizes the 
gentleman from Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman. I will pick up where 
my colleague left off, talking about specific examples. Mr. 
Klain, I will ask you.
    But not having enough tests is--explain to me. Was that 
necessary? Was that incompetence? Was it just oversight? Tell 
me how it is that Korea has more tests than the United States.
    Mr. Klain. Congressman, I think this is, as I said in my 
statement, a singular failure of U.S. policy and execution. The 
President imposed travel restrictions on people coming here 
from China. Those travel restrictions, though uneven and not 
complete, slowed the pace of the disease. It bought us time. 
Buying time works, if you use the time productively.
    We knew in December and early January we were going to need 
millions of tests. I have said we should test 30 million people 
in the United States: Seniors, people who have access to 
seniors, people in nursing homes. Doing surveillance, as 
several members have said, not just waiting for people to raise 
their hands and say, ``Test me.'' We knew we needed that in 
January.
    The CDC pursued building its own tests that turned out to 
be flawed. It didn't adopt the WHO test.
    We don't really know what significance there was in the 
messages that the President sent, that this wasn't a big deal. 
He said as recently as 15 days ago there are only 15 cases, and 
it is almost resolved. So you had a series of management 
failures, bureaucratic failures, execution failures that leave 
us so far behind other countries.
    This isn't a scientific problem. If they can test 150,000 
people in South Korea, America can test people, too. They don't 
have any wisdom that we don't have here. So that is a failure 
of execution in this country.
    Mr. Richmond. Thank you.
    Dr. Dobbs, let me ask you, as the lead State health 
official in Mississippi, I want to engage in a conversation 
about the collateral consequences and challenges that you face. 
So let's take Gulfport, Mississippi. I am a casino worker that 
gets paid by the hour. Biloxi and Gulfport survive a little bit 
on tourism. How--if I am feeling down, how do we get that 
person to take those days off that is necessary, or self-
quarantine for 14 days, and still pay their bills at the end of 
the month?
    Mr. Dobbs. Thank you for the question. That is an enormous 
challenge. We have been engaging with business communities, 
especially businesses that have a lot of hourly workers, and 
not that we have a resolution to this at all, but it is a big 
challenge because people who work hourly and get paid, and 
don't have sick leave are not going to do it.
    At the State level, State government, you actually have to 
take a vacation day before you can take a sick day. So people 
are not going to want to take their vacation day. So we are 
looking at--as part of any emergency declaration, to actually 
do away with that. So with government, there are, I think, 
opportunities to address those inequities.
    But in the business community it is a real challenge. I 
think we, as a country and as a State, are--really need to look 
at options we can do to make sure people can have paid sick 
leave.
    Then, the other thing to think about, and this is--there is 
not an easy answer to this either--is when people have to go 
home, and are out without a job for 2 weeks, who is going to 
pay the power bill? You know, we are working with nonprofits, 
and I know there is some capabilities to do that, but it could 
be a big issue, and might cost a lot of money.
    Mr. Richmond. Let me ask you a question, then. I am 
completely thinking out of the box, but in New Orleans we are 
accustomed to natural disasters, whether it is hurricanes, 
whether it is BP, whether it is, you know, levees. That is 
where FEMA steps in with either individual assistance or public 
assistance, and they start off with a certain amount, and then 
you have to go and prove your need, and all of the other 
things.
    Is FEMA the agency that we could task with providing either 
individual assistance, public assistance, if needed, improve--
somebody out there--if we want to be responsible with this, 
somebody out there is going to have to provide some assistance. 
So could FEMA do that under the individual assistance program?
    Mr. Dobbs. Technically speaking, I am not quite sure the 
best mechanism. But conceptually, it sounds like a very good 
fit to me. I mean, if we align this with a disaster response, 
it seems like it makes a lot of sense.
    Mr. Richmond. Right.
    Mr. Klain. Congressman, I could.
    Mr. Richmond. Mr. Klain.
    Mr. Klain. Five years ago I wrote a piece where I said that 
Congress should amend the Stafford Act to add epidemics as a 
disaster for the purpose of the Stafford Act. Right now FEMA 
could do as you suggested if you saw another hurricane in your 
State, or an earthquake, or a fire. But epidemics are not a 
natural disaster under the Stafford Act.
    To go back to a question Congressman Crenshaw asked, I 
think that is a zero cost--I mean not ultimately zero cost, as 
you draw down on it, but the kind of thing that we should be 
doing to get prepared. Because whether it is this one or 
another one, some day we are going to face an epidemic that 
really is a FEMA-triggering disaster. The Stafford Act should 
catch up with that.
    Mr. Richmond. Thank you. To--the former Chairman when I got 
here, Mr. King from New York, one of the last recommendations 
that we still have not adapted from the 9/11 Commission is to 
put all of the jurisdictions to responding to natural disasters 
and others, and putting the Stafford Act back under Homeland so 
that we could coordinate. I think now may be the time for us to 
raise that issue in a bipartisan manner to get Homeland the 
jurisdiction that----
    Mr. King. I agree, absolutely.
    Mr. Richmond [continuing]. It should have.
    Mr. King. That is long overdue, and I appreciate the 
gentleman raising that issue again. Thank you.
    Mr. Richmond. Thank you. I yield back.
    Mr. Payne. Thank you. Let's see. Mr. Neuwirth and, I 
believe, Mr. Klain. Oh, I am sorry. I have done that once 
before, too.
    The Chair recognizes the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I thank the Ranking 
Member, as well. I thank the witnesses for appearing.
    There are times when we are not as alert as we should be. I 
do confess that, as I listened, I was not as alert as I should 
have been, because I seem to believe that I heard Dr. Dobbs 
indicate that in Mississippi you have to take a vacation day 
before you can take a sick day. I am confident that I was not 
as alert as I should be. I should be more alert. I should hear, 
I should listen.
    Dr. Dobbs, tell me that I did not hear you properly, that I 
misunderstood, please.
    Mr. Dobbs. No, sir. You are absolutely correct. That is 
just for State government workers, though. That is not 
everybody----
    Mr. Green. Well----
    Mr. Dobbs [continuing]. But, I mean, it----
    Mr. Green. But, you know, they eat the same way everybody 
else eats.
    Mr. Dobbs. Yes.
    Mr. Green. You was telling me that, in Mississippi, if you 
are sick, before you can have a sick--day of sick leave, you 
have to take a vacation day?
    Mr. Dobbs. Yes, sir.
    Mr. Green. Do you know of any other State in the United 
States where this is prevalent?
    Mr. Dobbs. You know, I didn't know that that wasn't 
prevalent. I didn't know any better.
    Mr. Green. So it is--well, maybe I don't know better, 
either. Staff, somebody, please help me. I want to know, 
because I--that shocks my conscience, to be very honest. It 
does. Sickness and vacation are totally antithetical. I mean, 
they are not the same. They are not in the same class of time 
and leave. But you have given me reason to pause and think.
    Now, back to why I am here today. Much of what we hear and 
learn when we experience these circumstances is counter-
intuitive. Wearing some sort of gear on your face, the public 
believes that that is beneficial. People go out and buy as much 
gear as they can for their faces, because they assume that it 
will protect them.
    The staff has provided me with some intelligence that I 
would like to share with you, and I would like to find out what 
your thoughts are. It reads, ``Many countries''--actually, it 
is ``many others,'' but I will say countries--``Many countries 
have implemented travel bans, restrictions, and border closures 
against China and other affected nations. Notably, the World 
Health Organization, WHO, opposes the use of travel bans, and 
public health experts have expressed skepticism of the 
effectiveness of a travel ban.''
    Now, I am a layperson. I read this. I see travel bans in 
place. Would somebody kindly give me your thoughts on what the 
World Health Organization has indicated, in terms of its 
opposition to the use of travel bans, and the skepticism of the 
effectiveness?
    Mr. Klain. I will try to start, Congressman.
    Mr. Green. OK.
    Mr. Klain. I think the issue is that almost--there has been 
numerous studies of travel bans through the year, and what they 
have--years. What they find is that they can delay the 
introduction of a disease, but not stop it. We are living 
through that right now. The Trump administration imposed a ban 
on some travel from China, and yet coronavirus is here, and 
spreading rapidly. It did delay, I think, the spread. But it 
didn't stop it.
    Now, why? In part because, by the time the ban was spread, 
200,000 or 300,000 people from China had come here. Now the 
disease also is coming from Italy. It is coming from all kinds 
of other countries around the world. We can't stop the spread 
of that. The travel bans never prevented Americans from 
traveling back home to our country, as it should not. But 
Americans can bring this disease to our country as much as non-
U.S. nationals can.
    Even the--Trump's travel ban with regard to China exempted 
crews of planes and ships. Now why? Because our health care 
system needs imports from China. We can't have the kind of 
things these other people are talking about--PPE, drugs in the 
health care system--unless they are coming right now in our 
supply chain from China. So boats from China bring those things 
here. Those boats are driven by men and women who are Chinese. 
So that was exempted from the Trump travel restrictions.
    So my point is we live in an interconnected world. Travel 
restrictions are always going to be incomplete, and imperfect, 
often too late. That doesn't mean that an effort to slow the 
spread of disease wasn't smart. I think it was smart in some 
respects. But obviously, we are living the reality that it did 
not keep this virus out of this country.
    Mr. Green. Thank you, Mr. Chairman. I will yield back.
    Mr. Payne. Thank you, sir.
    I please ask for unanimous consent for Representative 
Jackson Lee to sit on the panel and ask questions.
    The Chair will recognize the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. I thank the Chair for his courtesies, and 
the Ranking Member, as well. Thank you for holding this 
enormously important hearing.
    I am going to ask unanimous consent to submit into the 
record a coronavirus plan of action that I introduced about 2 
months ago, ask unanimous consent.
    Mr. Payne. Without objection.
    [The information referred to follows:]
    CORONAVIRUS PLAN OF ACTION FROM CONGRESSWOMAN SHEILA JACKSON LEE
  <bullet> ENHANCED PRODUCTION OF N-95 MASKS
  <bullet> INFORMING STATE HEALTH AGENCIES AND ALL FEDERALLY QUALIFIED 
        HEALTH CLINICS TO TEST ALL PATIENTS PRESENTING WITH FLU-LIKE 
        SIMPTOMS FOR THE CORONAVIRUS
  <bullet> INCREASE THE SUPPLY OF FLU VACCINE AND USE PUBLIC SERVICE 
        ANNOUNCEMENTS TO PROMOTE GETTING A FLU SHOT TO REDUCE THE 
        NUMBER OF PERSONS WITH FLU-LIKE SYMPTOMS
  <bullet> TASK FORCE MUST NAME A SINGLE CORONAVIRUS AUTHORITATIVE 
        SOURCE FOR ALL FEDERAL INFORMATION ON THE VIRUS AND ESTABLISH 
        CLEAR COMMUNICATION LINKS TO K-12 AND POST-SECONDARY SCHOOLS, 
        THE MEDIA, AND THE PUBLIC
  <bullet> ESTABLISH A REQUIREMENT THAT THE NATION'S AIRPORTS, TRAIN, 
        AND MASS TRANSIT SYSTEMS BOTH SMALL AND LARGE, NEED TO HAVE 
        RESPONSE TEAMS AS NECESSARY TO DEAL WITH AND TREAT THE 
        TRAVELING PUBLIC
  <bullet> MAKE SURE THE FEDERAL ADVISORY TASK FORCE MAKES PUBLIC 
        REPORTS ON THE STATUS OF THE SPREAD OF THE CORONAVIRUS 
        INCLUDING THROUGH THE DEVELOPMENT OF AN APP THAT PROVIDES UP-
        TO-DATE TRAVEL ADVISORIES REGARDING CERTAIN COUNTRIES AND BASIC 
        INFORMATION ON THE VIRUS
Prepared by the Office of Congresswoman Sheila Jackson Lee

    Ms. Jackson Lee. Thank you. Let me thank all of the 
witnesses that are here. It is my intention to try to ask quick 
yes-or-no answers. I may focus--not painfully, Ron, Mr. Klain--
on you, not painfully, but because you have the Federal 
experience, and that is where we are now. To the health 
nonprofits and State agencies, I want to make sure that we are 
being as helpful to you as we possibly can.
    So we may have just the straight yes-or-no answers, but I 
do want to say--is that, with the leadership of the House, we 
passed an $8.3 billion plan--excuse me, funding that includes, 
through the emphasis of Members of this committee and others, 
funding to State and local health agencies. We hope that you 
will see that money for purposes that you need to see them. So 
my line of questioning will be along those lines, and then I 
will spend some time with Ron Klain.
    So, Mr. Commissioner Neuwirth, do you have test kits in 
your possession in the State of New Jersey?
    Mr. Neuwirth. I have two test kits in possession in New 
Jersey.
    Ms. Jackson Lee. It is that entire State, or do you think 
your local agencies have test kits, as well?
    Mr. Neuwirth. The State of New Jersey has 2 test kits, each 
with 500 tests in them. We can test a maximum of 432 
individuals with 2 test kits.
    Ms. Jackson Lee. So even though they have--you said 500 
apiece, or 500 total?
    Mr. Neuwirth. Five hundred apiece, of which 432, total, 
between the 2.
    Ms. Jackson Lee. OK. Even with me adding and saying, oh, 
you have 1,000, you are saying you can test 432?
    Mr. Neuwirth. Correct. Each individual requires more than 
one----
    Ms. Jackson Lee. Yes.
    Mr. Neuwirth [continuing]. Test.
    Ms. Jackson Lee. Do you mind me saying--and this is only a 
news report--that your Port Authority director--recent news 
reports is indicating that your--the port, I guess, of New York 
New Jersey has--is now infected with the coronavirus. Is that 
something you can affirm?
    Mr. Neuwirth. I, too, have seen that in the media.
    Ms. Jackson Lee. All right. Let me then--Mr. Dobbs is with 
Mississippi State. Thank you very much.
    How many test kits do you have, sir?
    Mr. Dobbs. We have the capacity to run about 700 tests.
    Ms. Jackson Lee. OK. So in that--can you say what--how many 
test kits you have? I know that you do several out of that.
    Mr. Dobbs. We just got a shipment of that additional kit, 
and each kit will run a bunch of tests, obviously. So we have 
some left from the previous one, and then a new one that we 
just got in this week.
    Ms. Jackson Lee. OK. So you wouldn't--700 tests, does that 
mean on 1 individual----
    Mr. Dobbs. No, that would be 2 tests for each person, yes.
    Ms. Jackson Lee. Right.
    Mr. Dobbs. So about----
    Ms. Jackson Lee. So you are down to 350 persons that you 
could test.
    Mr. Dobbs. Yes, ma'am.
    Ms. Jackson Lee. OK. I am not familiar with, I am sorry, 
the Trust for America's Health. Is this a----
    Ms. Gracia. Yes, Congressman, we are a nonprofit, 
nonpartisan public health advocacy, policy, and research 
organization. One of our priorities is public health, emergency 
preparedness. We produce an annual report called ``Ready or 
Not'' on the Nation's readiness.
    Ms. Jackson Lee. Yes. Let me just quickly ask you. There is 
a debate about the contagious nature of coronavirus. Would you 
say that it has a high level of contagiousness, if you will?
    Ms. Gracia. Well, we are seeing that it is a coronavirus 
that has easy transmissibility. So the way in which we are 
talking about taking preventive measures and precautions is 
similar to what we would do for other types of respiratory----
    Ms. Jackson Lee. But does it have a higher level of 
contagious factors?
    Mr. Payne. Oh, yes.
    Ms. Gracia. So we are still learning a lot about the 
disease. I think, one, we recognize enough that, yes, there is 
person-to-person transmission. We are seeing community spread 
in certain parts of the country.
    Ms. Jackson Lee. Right.
    Ms. Gracia. So, because of that, we are taking these types 
of precautions----
    Ms. Jackson Lee. I think, to a high degree, maybe than some 
others--people are not confusing it, but comparing it to the 
flu. I don't pretend to be a professional, but I would venture 
to say that the flu does not equate in its contagious factors 
to now the coronavirus.
    So I am going to go to--I was almost going to call you Ron, 
Dr. Klain, but let me move forward. My premise is that we have 
not been effective as a Federal Government, starting with the 
administration. Ebola, under the administration of President 
Obama and Biden, and one of the strongest--or one of the more 
difficult cases was in a hospital in Dallas, in the State of 
Texas, where medical providers, nurses, and others--someone 
took off for a wedding, someone else took off for vacation.
    But let me ask this. We--I think we had knowledge of this 
in December 2019. What would have been the roadmap? 
Preventative equipment for our health providers? Storing up our 
test kits so that they could be appropriately distributed? The 
appropriate documentation to inform people about washing hands 
and otherwise? Coming out with an immediate statement, say, 
right after the first of the year, talking about preparedness 
and not panic?
    Can I yield to you on the response that you have seen so 
far?
    Mr. Klain. Thank you, Congresswoman. I would say there are 
3 things that should have happened in January that didn't 
happen.
    First, a real focus on getting this test capacity problem 
solved, either by adopting the WHO testing approach, or by some 
other solution. We are just way behind. As a result of being 
behind, we can't really have an effective containment strategy 
for identifying where the disease is. It is in a lot of places 
in this country. We don't know where it is. That is a problem. 
That is a failure on testing.
    Second, I think getting our medical facilities preparedness 
for a surge of cases. Particular hospitals, particular 
communities, community health centers are going to see an 
influx of cases, and not really have the capacity to deal with 
that. I think that is really a problem.
    The third is, I think, crisper communications about warning 
people that this was coming. I understand we don't want to 
panic people. We don't want to be hyperbolic about it. But we 
have really known since January that we would see a ramp of 
cases that would have effects across the country. What we are 
going through right now is a kind-of a little bit of public 
panic, because it is coming on suddenly, it is unexpectedly. We 
haven't really prepared for that, and I think those are the 3 
things that we missed by a slow response here.
    Ms. Jackson Lee. Let me just----
    Mr. Payne. Thank you.
    Ms. Jackson Lee. Let me just thank you very much, and----
    Mr. Payne. Yes, the----
    Ms. Jackson Lee. Ron, I will try to follow up with you. 
Excuse me for that, Mr. Klain. I will try and follow up with 
you. Thank you.
    Mr. Payne. Thank you. The gentlelady's time----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Payne [continuing]. Has expired. Let's see now.
    I have a unanimous consent request for the gentleman from 
Louisiana.
    Mr. Richmond. I ask unanimous consent to put in the record 
an article by Ron Klain, ``A Success Not to be Repeated.''
    Mr. Payne. Without objection.
    [The information follows:]
           Article Submitted by Honorable Cedric L. Richmond
                      A Success Not to Be Repeated
Ronald A. Klain, External Advisor to the Skoll Global Threats Fund and 
        Former White House Ebola Response Coordinator. September 29, 
        2016.
    In October 2014--after the first death from Ebola on U.S. soil, the 
first transmission of the disease here, and in the wake of a rapidly 
escalating epidemic in West Africa--President Obama asked me to become 
the White House Ebola Response Coordinator, or Ebola czar. We got a 
late start, and had some shaky moments at first, but in the end, we 
helped save hundreds of thousands of lives in West Africa, protected 
the American people, and increased our health care system's readiness 
for a future epidemic. Now, with the AAMC's help, we can try to make 
sure we don't have to undertake such an effort again.
    Make no mistake: The Ebola response effort delivered critical 
results, and the AAMC and its member institutions were major 
contributors to that work. We accelerated Ebola response efforts, 
learned from early missteps, and assembled resources to battle the 
disease at home and abroad. Academic medical centers like Emory 
University, the University of Nebraska Medical Center, and Bellevue 
Hospital Center were prepared and equipped to treat Ebola patients in 
the United States and to keep the virus contained, while many others 
led local preparedness efforts and continue to help advance medical 
research on Ebola. These facilities and the AAMC provided valuable 
advice in our strategy to prepare American medical facilities to screen 
suspected Ebola cases, and treat those with the disease safely and 
effectively. The association was among the earliest supporters of 
President Obama's emergency Ebola response funding package on Capitol 
Hill, which won prompt bipartisan support and was signed into law only 
6 weeks after it was sent to Congress. As a result, the United States 
was able to provide generous help to the global response effort in West 
Africa, and make much needed investments in our preparations to combat 
infectious disease at home.
    Now, our challenge is to make sure that this is a success we never 
need to repeat.
    ``A preparedness strategy that only takes us from crisis to 
crisis--often with unreliable funding--is not ideal, and maintaining 
readiness for both expected and emerging threats is a long-term and 
expensive endeavor.''
    We can't prevent the threat of other dangerous infectious diseases: 
Far from it. Indeed, with the increased interaction between humans and 
animals through habitat incursion, the impact of globalization and 
expanded global travel, and the consequences of climate change, the 
world is entering a phase of accelerated emergence and re-emergence of 
dangerous infectious diseases. Middle East Respiratory Syndrome in 
2012, Ebola in 2014, and now Zika in 2016--with Yellow Fever on the 
horizon--show how serious and frequent these sorts of epidemics are 
becoming.
    It is precisely because such epidemics are increasing in frequency 
and spread that we need to change the way the U.S. Government responds 
to them. Yes, we had an Ebola czar, but we should not need a Zika czar, 
a Yellow Fever czar, or some future pandemic flu czar. And yes, we got 
emergency funding through Congress to fight Ebola--but the package to 
fight Zika has been stalled for months, and future epidemics will move 
faster than Congress can in assembling a response.
    Medical schools and teaching hospitals are frequently on the front 
lines of these epidemics, and the public has come to count on these 
institutions to partner with the broader public health community to 
scale up rapidly for the highly specialized expertise in research, 
education, and clinical care needed to combat such challenges. A 
preparedness strategy that only takes us from crisis to crisis--often 
with unreliable funding--is not ideal, and maintaining readiness for 
both expected and emerging threats is a long-term and expensive 
endeavor.
    As a result, the AAMC's help is needed to make two critical changes 
in how the United States responds to these threats in the future.
    First, instead of appointing ad hoc czars after an epidemic breaks 
out, the next President should create a Pandemic Prevention and 
Response Directorate in the National Security Council, much like those 
that already exist to fight terrorism and climate change. This team 
would have the responsibility of developing epidemic prevention and 
response strategies, funding proposals, and working with private 
partners--before the next outbreak. The directorate would be 
responsible for both naturally occurring epidemics as well as potential 
bioterrorist threats. This permanent effort should be led by a senior 
White House official, a deputy assistant to the President who would 
report directly to the National security advisor and have access to the 
President. The AAMC should continue its engagement with the broader 
public health community and support the creation of a new, permanent 
White House effort to coordinate epidemic prevention and response.
    This change in how the Government manages epidemics should be at 
the top of the list for the next President and should be in place on 
Inauguration Day 2017.
    Second, when a tornado, earthquake, or hurricane strikes, the 
President does not need to wait for Congress to act to send help--the 
President has authority under the Stafford Act to send immediate 
assistance. But as we learned with Ebola, and now with Zika, the same 
is not true for epidemics. These natural disasters are not covered by 
the Stafford Act, and the President must plead with Congress to provide 
funding for prevention and response efforts. In the face of a public 
health emergency, however, the time that such wrangling consumes can 
put us further behind the epidemic, render our counter measures less 
effective, and even cost lives.
    The bipartisan group--led by Sen. Brian Schatz (D-Hawaii) and Sen. 
Bill Cassidy (R-La.), and Rep. Rosa DeLauro (D-Conn.)--has proposed a 
solution: A Public Health Emergency Fund that would make immediate 
assistance available for epidemic response when the Secretary of Health 
and Human Services declares a public health emergency. When a public 
health threat requires an emergency response, either at home or abroad, 
such a fund would ensure that lack of immediate access to funds does 
not prevent necessary action. Backing from the AAMC for this type of 
emergency fund would help move this proposal closer to reality.
    The AAMC played a major role in America's response to the Ebola 
epidemic of 2014-15, and as a result, lives were saved in Africa and a 
health crisis was prevented here in the United States. Now, its 
leadership can make a major difference in making sure we have the 
direction and resources in place to combat the next such challenge--
before it becomes a public health crisis.

    Ms. Jackson Lee. Mr. Chairman, may I add something to the 
record?
    This is dated March 3, 2020. ``The U.S. has only a fraction 
of the medical supplies it needs to combat the coronavirus.'' 
This is in the National Geographic.
    Mr. Payne. Thank you.
    Ms. Jackson Lee. I ask unanimous consent----
    Mr. Payne. Without objection.
    [The information follows:]
                    Article From National Geographic
  u.s. has only a fraction of the medical supplies it needs to combat 
                              coronavirus
The country could require seven billion respirators and face masks over 
        the course of the outbreak.
By Nsikan Akpan, published March 3, 2020.
    Three hundred million respirators and face masks. That's what the 
United States needs as soon as possible to protect health workers 
against the coronavirus threat. But the nation's emergency stockpile 
has less than 15 percent of these supplies.
    Last week, U.S. Health and Human Services Secretary Alex Azar 
testified before the Senate that the Strategic National Stockpile has 
just 30 million surgical masks and 12 million respirators in reserves, 
which came as a surprise considering that the stockpile's inventory is 
generally not disclosed for national security reasons. Asked by 
National Geographic about the discrepancy, a senior official with the 
Strategic National Stockpile said the department intends to purchase as 
many as 500 million respirators and face masks over the next 18 months.
    Even such a promised surge in production may not be enough--and it 
may not come soon enough. A widely overlooked study conducted 5 years 
ago by the U.S. Centers for Disease Control and Prevention found that 
the United States might need as many as seven billion respirators in 
the long run to combat a worst-case spread of a severe respiratory 
outbreak such as COVID-19.
    The outbreak now has entered a new, more potent phase dictated by 
local or community transmission. It's no longer just being imported 
from China. Coronavirus has started spreading locally in 13 other 
countries, including South Korea, Japan, Singapore, Australia, 
Malaysia, Vietnam, Italy, Germany, France, United Kingdom, Croatia, San 
Marino, Iran, the United Arab Emirates, and the United States. On 
Wednesday, the World Health Organization announced COVID-19's global 
death rate is 3.4 percent, more than 30 times that of seasonal 
influenza, but also stated the coronavirus doesn't spread as easily as 
the flu. The global tally of confirmed cases and deaths has risen to 
93,000 and nearly 3,200, respectively.
    In the U.S., COVID-19 cases without clear ties to China began 
dotting the West Coast last week. At the same time, the Nation saw an 
uptick in fatalities--nine so far as of Tuesday--with most occurring at 
a nursing home in Kirkland, Washington. Among those deaths is one 
patient who passed away last week at Seattle's Harborview Medical 
Center. Viral tests, made well after his death, revealed a COVID-19 
diagnosis and that hospital staff may have been exposed.
    Besides confirming the threat posed to the elderly, these deaths, 
the community transmission, and genetic analysis suggest the virus has 
been spreading unnoticed in Washington since mid-January.
    ``We will have community spread,'' New York Governor Andrew Cuomo 
said Monday at a news briefing about the State's first confirmed case. 
``That is inevitable.''
    All of these events sparked a run on medical supplies over the 
weekend, a worrying prospect given the CDC has indicted there could be 
a global deficit of personal protective equipment such as surgical 
masks, goggles, full-body coveralls, and N95 respirators, the only CDC-
approved face guard, which are designed to filter 95 percent of 
airborne particles.
    ``We're concerned that countries' abilities to respond are being 
compromised by the severe and increasing disruption to the global 
supply of personal protective equipment, caused by rising demand, 
hoarding, and misuse,'' Dr. Tedros Adhanom Ghebreyesus, WHO director-
general, said at a press briefing at the agency's headquarters in 
Geneva on Tuesday. ``Prices of surgical masks have increased sixfold, 
and N95 respirators have more than tripled, and gowns cost twice as 
much.''
    What's more, even if U.S. medical centers obtain the necessary 
supplies, a second shortage of medical specialists may emerge if this 
respiratory outbreak spreads even more dramatically.
Taking stock
    The panicked demand and lack of supplies was predictable. China 
manufactures roughly 50 percent more medical and pharmaceutical 
supplies than its nearest competitor, the U.S., according to data 
supplied to National Geographic by Euromonitor International. But the 
Asian country now needs those precious supplies for its tens of 
thousands of cases, at a time when manufacturing has slowed across the 
country.
    ``The fundamental point that's exposed in situations like that is 
that autarky--the idea of self-sufficiency--is lovely in theory, but it 
almost never actually works in practice, because we tend to not 
appreciate supply chains,'' says Parag Khanna, a global strategy 
advisor and author of Connectography and Technocracy in America.
    Much of the world has become accustomed to same-day delivery 
without thinking about the bundles of transactions that support such a 
system. Some global industries can circumvent major blockages or delays 
in supply chains caused by the coronavirus outbreak. But other supply 
chains and industries--like automobiles, travel, and medical supplies--
are too tightly bound across borders in what Khanna calls a supply 
circuit.
    ``China's a manufacturer of intermediate products . . . but what 
they're really manufacturing on a wider scale is starting material for 
active pharmaceutical ingredients,'' says Scott Gottlieb, a former U.S. 
FDA commissioner and resident fellow at the American Enterprise 
Institute. ``These manufacturers have one to 3 months of supply, so 
they're going to be able to continue to manufacture for a period of 
time, but eventually they're going to run out.''
    ``The irony is that some of the other countries who could do these 
things very quickly, like Japan or South Korea, are also affected by 
the virus,'' says Khanna, who has also noted that the coronavirus 
appears to be spreading along China's ``new silk road''--echoing what 
happened with the Black Death in the 1300's. He and other experts 
expect India, Thailand, Indonesia, and Vietnam to swoop in to 
capitalize on China's deficit.
    On Friday, the FDA announced the first drug shortage due to the 
coronavirus. And for nearly a month, the CDC has warned about the 
fragility of supply circuits for personal protective equipment, as 
manufacturers struggle to meet orders for face masks and N95 
respirators. That's possibly because the CDC conducted a thought 
experiment 5 years ago that offers a clear warning for the situation 
unfolding today. Back then, the public health agency wanted to predict 
how many resources the U.S. might need over the entire course of a 
hypothetical outbreak of a severe flu virus. (Learn about how 
coronavirus compares to flu, Ebola, and other major outbreaks.)
    The result was a series of models built with parameters that bear 
an uncanny resemblance to what is currently happening with the 
coronavirus. From disease transmission rates down to the lack of 
specific antivirals or vaccines, the CDC papers offer a rough guide on 
what preparedness needs to look like to combat an emerging respiratory 
pandemic.
    ``In terms of the amount of masks, gowns, gloves, [and] respirators 
that would be needed, this influenza model is a good way to estimate 
that at this point,'' says Eric Toner, a senior scientist at the Johns 
Hopkins Center for Health Security who wasn't involved with the CDC 
papers. ``I don't see any reason to think that we would need a 
different number of those things than we do for a severe pandemic 
flu.''
    Based on the models, U.S. health care workers would need two to 
seven billion respirators for the least--to most--severe possible 
scenarios. That's up to 233 times more than what's currently in the 
Strategic National Stockpile.
    ``The demand that would be required in a severe pandemic is so 
unlike the amount that's used on a day-to-day basis,'' says Lisa 
Koonin, an epidemiologist and founder of Health Preparedness Partners. 
She worked for the CDC for more than 30 years and is a co-author on 
these reports. ``For the respirators and surgical masks, we're talking 
orders of magnitude greater need for a severe pandemic.''
    The WHO has shipped nearly half a million sets of personal 
protective equipment to 27 countries, but it says supplies are rapidly 
depleting. The global health agency estimates that each month 89 
million medical masks will be required for the COVID-19 response, along 
with 76 million examination gloves and 1.6 million goggles. The WHO 
estimates that supplies of personal protective equipment need to be 
increased by 40 percent globally.
Special staff
    ``In a severe pandemic, we certainly could run out of ventilators, 
but a hospital could just as soon run out of respiratory therapists who 
normally operate these devices.''--Eric Toner, Johns Hopkins Center for 
Health Security
    Along with the billions of respirators, the CDC predicted that U.S. 
patients and health care workers might need as many as 100 to 400 
million surgical masks, as well as 7,000 to 11,000 mechanical 
ventilators. The latter are used during life support for the most 
severe cases of respiratory disease, after a patient's lungs stop 
working on their own. A report published Friday in the New England 
Journal of Medicine states that about 2.3 percent of early coronavirus 
patients underwent mechanical ventilation.
    But ventilators, respirators, and even basic masks are only helpful 
when used by expert hands--and that presents another potential 
shortfall for the U.S.
    ``In a severe pandemic, we certainly could run out of ventilators, 
but a hospital could just as soon run out of respiratory therapists who 
normally operate these devices,'' says Toner. The Bureau of Labor 
Statistics estimates that the U.S. employs 134,000 respiratory 
specialists, or approximately 20 of these technicians for every 
hospital in America. (Will warming spring temperatures slow the 
coronavirus outbreak?)
    ``One of [the CDC's] conclusions was, it's not so much the number 
of ventilators as the number of people needed to operate the 
ventilators. That's the choke point,'' Toner adds.
    Resource demands at a single hospital could also be substantial as 
coronavirus cases increase in the U.S. Three years ago, the Mayo 
Clinic--a prestigious medical system based in Rochester, Minnesota--
asked Toner and his colleagues to assess what kind of individual 
stockpile might be required during a severe influenza pandemic.
    Unlike the CDC papers, their model ran through 10,000 scenarios, 
each with slightly different settings for epidemiologic variables such 
as hospitalization rates, hospital length of patient stays, how much 
time patients spend on mechanical ventilation, and case fatality rate.
    ``A model like this can't tell you the right thing to do. But it 
can tell you the range of possibilities,'' Toner says.
    For example, if the Mayo Clinic stockpiled 4.5 million gloves, 2.3 
million N95 respirators, 5,000 doses of a potent antiviral, and 880 
ventilators, those supplies would cover the clinic's facilities for 95 
percent of the likely outcomes--everything except the absolute worst-
case scenarios for a respiratory pandemic.
    ``We go through a lot of gloves in health care, and the numbers can 
be staggering,'' Toner says. ``Particularly with a disease like this 
where some people are advocating double gloving, you'll burn through 
gloves twice as fast.''
    But he emphasizes that every hospital's demands would be different. 
The Mayo Clinic is large, boasting more than 63,000 staff members that 
not only serve Minnesota, but accept specialty patients from around the 
world.
    ``We can't stop COVID-19 without protecting our health workers,'' 
WHO director-general Ghebreyesus says. ``Supplies can take months to 
deliver, market manipulation is widespread, and stocks are often sold 
to the highest bidder.''
Resilient circuits
    The actual demand and supply for health care equipment during this 
outbreak will depend on myriad variables, one of which is an outbreak's 
attack rate. As of this moment, that is a mystery for COVID-19.
    The attack rate is what percentage of a population catches an 
infectious disease overall. If a hundred people live in a city, and a 
virus' attack rate is 20 percent, then 20 citizens would be expected to 
get sick. Both the CDC papers and Toner's models rely on attack rates 
ranging from 20 to 30 percent, a standard estimate for severe 
pandemics. (Learn about the swift, deadly history of the Spanish Flu 
pandemic.)
    But the attack rate for COVID-19 is still unknown because it takes 
time to measure. Scientists must develop a test--known as a serology 
assay--that can detect whether a person caught the coronavirus even if 
they never reported symptoms.
    ``In terms of quantifying that specifically, it's still quite early 
days,'' Maria Van Kerkhove, an infectious disease epidemiologist and 
the technical leader for WHO's Health Emergencies Program, said at a 
press briefing at the WHO headquarters in Geneva on Monday. Van 
Kerkhove added those serologic surveys must be conducted across large 
populations, so attack rates can be determined for individual age 
groups.
    Because the attack rate reveals how much of a population is likely 
to catch a disease, it can be crucial in determining how to allocate 
resources locally, nationally, and globally. Van Kerkhove added that 
the necessary surveys are underway, and the World Health Organization 
hopes to see some preliminary results in the coming weeks.
    In the meantime, Vice President Mike Pence, the Trump 
Administration's newly appointed coronavirus czar, on Saturday 
announced a deal with the Minnesota-based corporation 3M to produce 35 
million masks a month. And the managers for the Strategic National 
Stockpile have asked companies to submit data on their inventories of 
personal protective equipment, in case the coronavirus crisis 
escalates. They also hope their recent request for 500 million 
respirators and masks will promote the growth of local manufacturers.
    ``This purchase will encourage manufacturers to ramp up production 
of personal protective equipment now with the guarantee that they will 
not be left with excess supplies once the COVID-19 response subsides,'' 
says Stephanie Bialek of the Strategic National Stockpile. ``In an 
emergency, the SNS can send these products to areas in need as 
requested by State health officials.''
    Editor's Note: This story has been updated with the latest case 
counts as of March 4 and with the new estimate for the global death 
rate. The story was originally published on March 3.

    Ms. Jackson Lee. Thank you.
    Mr. Payne. Mr. Neuwirth, we have heard the--that the 
Federal Government has been ineffectively communicating, and 
providing contradictory guidance to the local and State 
governments during this outbreak. What has your experience 
been, and how can communication with the State and locals be 
improved?
    Mr. Neuwirth. So our experience has been one of--you know, 
there have been challenges up until this point ensuring that we 
are able to effectively implement the policy decisions of the 
Federal Government in a timely and consistent matter.
    We are in lockstep with our regional Federal 
representatives at the U.S. Department of Health and Human 
Services and the CDC, of course. But there--you know, there 
have been, since the beginning of this in January, instances 
where, you know, additional lead time on information coming 
from the Feds would have provided the State of New Jersey 
additional time to prepare and respond in an even more 
efficient manner.
    Up until this point we have been very proactive in our 
implementation of the crisis management team and the 
coronavirus task force, so we have been prepared to respond on 
a moment's notice. But additional lead time of information 
coming from the Feds on important decisions such as screening 
at the airports, the joint base, and the testing kits would be 
tremendously valuable.
    Mr. Payne. Yesterday we learned that the CDC has delayed 
confirming presumptive coronavirus cases in New Jersey. Has 
this issue been resolved?
    Mr. Neuwirth. This issue has not been resolved. To date the 
CDC has not confirmed any presumptive positive case in New 
Jersey.
    Mr. Payne. Thank you. To Mr. Klain and Mr. Neuwirth also, 
the roll out of the testing kits has been flawed, obviously; we 
have 2 in New Jersey. What could the Government have done 
better to ensure that local and State laboratories could test 
Americans for coronavirus?
    Mr. Klain, you want to start?
    Mr. Klain. You know, Mr. Chairman, as I said a minute ago, 
I think that we could have made a decision to adopt the testing 
protocols and kits used in other countries that have allowed 
them to ramp up very quickly. We made a different decision here 
that didn't work out.
    We also could have made it a higher priority to really 
focus on that. I just think we lost time. We are behind.
    I think the decision to bring in private labs is a positive 
decision. It certainly increases the capacity, but that is only 
going to deal with people who are in a diagnostic or clinical 
setting. Your doctor sends you and says, ``Go get a lab,'' and 
we really need to be doing surveillance. We need to be going 
out in the community and finding the cases, finding the cases 
in nursing homes, and community centers, and where older people 
congregate. I think that is really a weakness of relying on 
private labs as the principal solution for testing.
    Mr. Neuwirth. I concur with Mr. Klain. It is important to 
recognize that the State public health environmental 
laboratories, of which--there is a network of them across the 
country--are--primarily serve as surveillance laboratories, not 
clinical diagnostic laboratories. We do not, as State labs, 
have the clinical throughput that these third-party commercial 
labs have.
    So it is important to bring on-board and bring on-line 
these third-party commercial laboratories for the clinical 
diagnostic piece that they can test tens of thousands of 
individuals at any given time, and allow the State's public 
health and environmental laboratories to conduct a very 
progressive and very, you know, comprehensive surveillance 
activities across the State to ensure we remain ahead of where 
these cases are.
    Mr. Payne. Thank you. In the interest of time, votes have 
been called, and I will recognize the gentleman from New York 
for a question and a closing.
    Mr. King. Thank you, Mr. Chairman.
    I have a question, Mr. Klain, and let me just state for the 
record up front that there were, obviously--the whole issue 
with the test kits was wrong. They should have been out. So I 
am asking this in not a rhetorical way, but planning toward the 
future with what we learned from the past.
    To me, the CDC, the fact that they did not accept the WHO, 
was there a reason for that?
    Second, is there partisan influence in the CDC, or was this 
an honest mistake made by scientists in the CDC, or doctors at 
the CDC when the test kits came out and they were obviously 
inadequate and they were flawed?
    So what I am getting at is there can be policy mistakes, 
and there can be just the luck of the draw, that they did their 
best, and it went wrong.
    So, again, any thoughts that you have on that, based on 
your experience?
    Mr. Klain. Congressman, you know, I think we don't know the 
answers to that question. We don't know the answers to some of 
those questions. You would have to ask CDC why they made the 
choices they made, and then why the approach they took didn't 
work. I don't know the answer to that.
    I think--I don't think this is a partisan thing. I don't 
think this is some conspiracy, or some political decision to go 
this way. But I do think--and so I don't want to overstate my 
criticism of the administration, but I also don't want to 
understate it, which is I think the signs were flashing yellow 
early on that the CDC approach was not going to work.
    I think stronger coordination and leadership from the top, 
from the White House, would have said, ``Hey, you know what? We 
have got a mess here.'' No one chose to make this mess. It was 
an accident. But we need to do something quickly to turn this 
around and to get this fixed.
    So, you know, I don't blame anyone for the initial mistakes 
and the consequences. But then, you know, that is what 
leadership is. Leadership is saying, ``Hey, this isn't working. 
We need to get on top of this. We need to catch up.'' I think 
that is, I think, where, you know, again, without being 
partisan or political, I think that is where the policy 
decisions came, which was, once the lights were flashing 
yellow, what did we do to accelerate a response to that.
    Mr. King. I guess the only question I would add to that--
and again, I don't have the answer, so I am not trying to make 
this a partisan debate--is if they had done that, would they 
have said this was politicians interfering with the scientists?
    I mean, if CDC thought this was the right way to go, and 
the President or the Vice President or some Republican Member 
of Congress said, ``Hey, you have got to speed this up,'' and 
then they did speed it up, and it didn't work, they would say 
it was politicians interfering with science.
    I mean, again, I am trying to----
    Mr. Klain. Yes. No, Congressman, I think that is----
    Mr. King. But, I mean, the people at the top, you have to--
--
    Mr. Klain. No, Congressman----
    Mr. King. They are going to take the blame, I realize that.
    Mr. Klain. That is a--look, I think, Congressman, that is a 
fair question. What I would say is that the role of political 
leadership, whether that was President Obama in the Ebola 
response, or President Trump and Vice President Pence now, is 
to ask the scientists, ``How is it going? What is going on 
here? Why is it that I am waking up and I see that Korea has 
tested 50,000 people and we have tested 500?''
    Mr. King. I am asking the same question.
    Mr. Klain. You know, like--so I don't think there is 
anything politicizing about science to ask your scientists, 
``How come I am seeing this on the news, and how come I am not 
seeing this here?''
    Ultimately, the medical decisions, the scientific decisions 
should be made by them. But, you know, the Government should 
hold people accountable for results.
    Mr. King. Again, if I could make a semi-partisan point, 
maybe that is why it is important to have you and the Vice 
President running these things finally.
    I mean, again, maybe if Mike Pence had been there from the 
start, they would have gotten a faster result. The bureaucrats 
sometimes only respond if you know that----
    Mr. Klain. Congressman, I absolutely agree with that. I 
think that some kind of White House coordinator was needed. It 
was one of my early criticisms of the administration. I am glad 
they have done it.
    My only criticism of the current coordination would be I 
think someone really needs to be on this full-time. I think, 
obviously, the Vice President has a lot of other 
responsibilities, as he should. That is not a criticism, it is 
just a reality. I think they brought in Ambassador Birx, who I 
have a great deal of respect for, to work with the Vice 
President. She is still doing her other job, as well, kind-of 
running PEPFAR. I think, whether it is her or someone, this 
should be a full-time job. This is a big problem for our 
country. Leading the response shouldn't be your side gig.
    Mr. King. I just hope, when this is all over, we have a 
good after-action report. Thank you for your service.
    Mr. Payne. I thank the gentleman. I--you know, and I 
absolutely am a believer, in a time of crisis, we should tend 
to lean on people that have had some experience in the past, 
the near past, such as yourself, involved in these things. So 
thank you for your service.
    I would like to thank all the witnesses for their valuable 
testimony, and the Members for their questions.
    The Members of the subcommittee may have additional 
questions for witnesses, and we ask that you respond 
expeditiously in writing to those questions.
    Pursuant to committee rule VII(D), the hearing record will 
be open for 10 days, without objection.
    Hearing no further business, the subcommittee stands 
adjourned, and we are 389 not voted. Thank you.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
